<html>
<title> - FIGHTING METH IN AMERICA'S HEARTLAND: ASSESSING FEDERAL, STATE, AND LOCAL EFFORTS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
  FIGHTING METH IN AMERICA'S HEARTLAND: ASSESSING FEDERAL, STATE, AND 
                             LOCAL EFFORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2005

                               __________

                           Serial No. 109-97

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-891                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                         Nick Coleman, Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2005....................................     1
Statement of:
    Bushman, Bob, special senior agent, Minnesota Bureau of 
      Criminal Apprehension, and president, Minnesota State 
      Association of Narcotic Investigators; and president, 
      Minnesota Police and Peace Officers Association, 
      accompanied by Gail Baez, prosecuting attorney, 
      Minneapolis; Dennis Miller, drug court coordinator, 
      Hennepin County Department of Community Corrections; 
      Kirsten Lindbloom, coordinator, Mower County Chemical 
      Health Coalition; and Buzz Anderson, president, Minnesota 
      Retailers Association......................................    48
        Anderson, Buzz...........................................    84
        Bushman, Bob.............................................    48
        Lindbloom, Kirsten.......................................    65
        Miller, Dennis...........................................    56
    Ogden, Timothy J., Associate Special Agent in Charge, Chicago 
      Field Division, DEA, accompanied by Dennis Wischern, 
      Assistant Special Agent in Charge, Indiana; and Thomas 
      Kelly, Assistant Special Agent in Charge, Minnesota and 
      North Dakota; Julie Rosen, Minnesota State Senator; Terese 
      Amazi, sheriff, Mower County; Brad Gerhardt, sheriff, 
      Martin County; Lieutenant Todd Hoffman, Wright County 
      Sheriff's Office; and Susan Gaertner, attorney, Ramsey 
      County.....................................................    10
        Amazi, Terese............................................    22
        Gaertner, Susan..........................................    30
        Gerhardt, Brad...........................................    23
        Hoffman, Lieutenant Todd.................................    29
        Ogden, Timothy J.........................................    10
        Rosen, Julie.............................................    19
Letters, statements, etc., submitted for the record by:
    Campion, Michael, Commissioner, Minnesota Department of 
      Public Safety, prepared statement of.......................    51
    Gaertner, Susan, attorney, Ramsey County, prepared statement 
      of.........................................................    33
    Gerhardt, Brad, sheriff, Martin County, prepared statement of    26
    Lindbloom, Kirsten, coordinator, Mower County Chemical Health 
      Coalition, prepared statement of...........................    67
    Miller, Dennis, drug court coordinator, Hennepin County 
      Department of Community Corrections, prepared statement of.    58
    Ogden, Timothy J., Associate Special Agent in Charge, Chicago 
      Field Division, DEA, prepared statement of.................    13
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     7


  FIGHTING METH IN AMERICA'S HEARTLAND: ASSESSING FEDERAL, STATE, AND 
                             LOCAL EFFORTS

                              ----------                              


                         MONDAY, JUNE 27, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                      St. Paul, MN.
    The subcommittee met, pursuant to notice, at 8 a.m., in the 
Moot Court Room, Hamline University School of Law, 1536 Hewitt 
Avenue MS D2011, St. Paul, MN, Hon. Mark Souder (chairman of 
the subcommittee) presiding.
    Present: Representatives Souder, Gutknecht, Kennedy, and 
McCollum.
    Staff present: Malia Holst, clerk; and Nick Coleman, 
counsel.
    Mr. Gutknecht. The subcommittee will come to order. The 
chairman is en route, and as some of you found out with this 
rainstorm, it is harder to get here than you may have thought.
    This represents something like the 25th hearing of this 
subcommittee on the issue of drugs in America, and we are 
delighted to be here in St. Paul today. And I'm also delighted 
to be joined by two of my colleagues from Minnesota to have 
this hearing entitled, ``Fighting Meth in America's Heartland: 
Assessing State, Federal and Local Efforts,'' and I think we've 
assembled a very interesting panel, and we will--obviously, 
this is an official hearing, everything will be transcribed and 
will part of the official hearing.
    I would start with my own opening statement just real 
briefly, first of all saying good morning and thank you to all 
of you for coming today.
    Because of its ease of production and the availability of 
the ingredients, especially in farming communities, meth is a 
very serious drug here in the Heartland of America.
    Today we have some really amazing witnesses, including 
State Senator Judy Rosen, Mower County Sheriff Terese Amazi, 
Martin County Sheriff Brad Gerhardt, and they're going to be 
talking a little bit about the problems that they face every 
day in dealing with this drug.
    Word travels fast in rural America. People look out for 
each other. What has amazed me has been the ease of making and 
selling this drug, even in very, very small towns, and we'd 
like to learn a little more about that because, generally 
speaking, in small towns people know their neighbors, they look 
out for their neighbors and they have a pretty good idea what's 
going on in their towns.
    Again, just briefly, I'd like to congratulate the 
subcommittee and Chairman Souder for coming. Hopefully, he'll 
be here soon, and I would recognize, first of all, I think in 
the order of seniority, plus, I think we're in her district, 
the Congresswoman from South St. Paul or St. Paul, which?
    Ms. McCollum. St. Paul always works, St. Paul, West St. 
Paul.
    Mr. Gutknecht. Thank you for hosting us here.
    Ms. McCollum. Thank you, Mr. Chairman, and it is good to be 
here at Hamline University, which just finished celebrating its 
150th anniversary. So this university is committed to giving 
back to the community and provide a wonderful place to learn.
    I first became aware of methamphetamine first like all of 
us from media reports, talking to my local law enforcement both 
as a city council person, it was still referred to as crank 
kind of back then a little bit, and I didn't even get the 
connection as to what all the different names methamphetamine 
had taken over the years until it really hit home when I had a 
constituent call and she was talking about methamphetamines. 
She was talking about methamphetamine production in a house she 
had just purchased where she was going to do day-care, and so 
we had to work through to get it cleaned up, to get her 
business going, and then I learned that methamphetamine goes by 
all the different names it's always gone by, but bottom line is 
it's a poison on her society.
    I'm going to have some testimony submitted for the record, 
Mr. Chairman, from Dakota and Washington Counties as well, and 
they have, along with other local units of government, focused 
on the challenge that we face with meth being produced here at 
home. But what I do know is we need to do something about it. 
In a Government Reform hearing that I attended with Mr. Souder, 
I was chairing, when I asked him to come to Minnesota back over 
a year ago, we came to learn that even if we do everything we 
can do to close local labs, it's not enough. The meth epidemic 
that's poisoning Minnesota and our country is primarily being 
produced in Mexican super labs, trafficked by Mexican gangs 
crossing our country from Mexico.
    So banning Sudafed and eliminating every lab in Minnesota 
is a correct step to take, my constituents fully support that, 
but they also know that we need to do something about the gangs 
that threaten our national security, and of course, order that 
if methamphetamine is coming through, who knows what 
opportunity Al-Qaida might work behind.
    So I look forward to this hearing, Mr. Chair. Thank you.
    Mr. Gutknecht. Thank you, Betty, and let me just get rid of 
a couple of procedural matters before we start.
    First of all, I ask unanimous consent that all Members 
present may be permitted to participate in this hearing. 
Without objection, so ordered.
    I also ask unanimous consent that all Members have 5 
legislative days to submit written testimony and statements for 
the hearing record and that any answers to written questions 
provided to the witnesses would also be put into the record. 
Without objection, that is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials related to or presented by Members to be 
included in the hearing record, and that all Members may be 
permitted to revise and extend remarks. Without objection, that 
is so ordered.
    I now recognize the gentleman from the 6th Congressional 
District, Congressman Kennedy.
    Mr. Kennedy. Thank you, Congressman Gutknecht. I thank 
Congresswoman McCollum for having us in her district here 
today, and I'm very pleased that the chairman, who we expect to 
be here soon, has decided to hold this hearing here.
    This is a very, very important issue, and, you know, if you 
look at the evolution of meth, it used to be that it was just 
out in the western States and the southern States and we 
figured it wasn't an issue up here in the Midwest, and then it 
was in the Midwest, but it was in the rural areas and we didn't 
think it was an issue in the metro areas, but it is not just 
tearing apart our rural communities. It has now really spread 
throughout the State, and there is county after county that 
tell us that 90 percent plus of the people that they're holding 
in their jails are in some way related to meth.
    This is coming to us most vividly in meth labs in our 
States. We need to shut those down. We're in the process of 
doing that. We need to do more. We need to clean them up once 
we get them shut down, but as Congresswoman McCollum says, it's 
also an issue where it's produced in bulk and traded around the 
world, and we need to not just go after that but after the 
precursors as well and address them head on.
    You know, if you look at some of the things we need to do, 
it's an education in our schools' effort, it's an education for 
patients that are trying to get off it and get them off of this 
addiction. Many of them it started at a very young age, you 
know, for something maybe as silly as weight loss, but then 
they get addicted, too many of them get hooked into 
prostitution just to pay for it. There's just heart-wrenching 
stories of those kids that grew up in a meth lab that we need 
to reach out and help from a healthcare perspective. We also 
need to make sure our law enforcement has the resources they 
need.
    All these things we've been trying to address, a number of 
efforts that we focused on in Congress recently, here's the 
funding for Byrne Grants, funding for Meth Hot Spots. We, 
frankly, although Chairman Souder and I and others have pushed 
hard to increase that funding, we maybe haven't had the success 
we wanted. So having testimony like this so that we can more 
vividly bring those stories back and the need back is something 
that's very important and compelling.
    I would also say that my CLEAN-UP Act, H.R. 13, also 
addresses many of the things we've talked about. I think higher 
penalties when we find those that are bringing it across the 
border, when we find those that are pushing this poison on our 
children, we need to make sure that they get a penalty that is 
reflective of the seriousness of the crime and deters them from 
doing it in the future.
    So there are few things more important for us than to keep 
this scourge away from our communities. I thank all the 
witnesses for being here, I look forward to your testimony, and 
I thank the chairman, who has now arrived, to respond to our 
request to come here to Minnesota.
    Mr. Gutknecht. I now recognize the chairman of the 
subcommittee, a gentleman who I came into Congress with in 
1994, as I mentioned, who has probably worked harder than any 
other single Member of the U.S. House of Representatives on the 
issue of the scourge of drugs, particularly in rural parts of 
America, Mark Souder.
    Mr. Souder. Thank you. I had a flight through Chicago last 
night which was a big mistake.
    I want to thank you all for coming and thank each of the 
Members here for having requested this hearing and for all the 
people on the front lines of the meth war.
    This hearing continues our subcommittee's work on the 
growing problem of methamphetamine trafficking and abuse--a 
problem that has ravaged communities across the entire country. 
I'd like to thank my three co-hosts, Congressman Gutknecht, 
Congressman Kennedy and Congresswoman McCollum for inviting me 
to the Twin Cities for this hearing.
    They've each approached me at different times on the House 
floor and asked me to do this. I think the first time was 
Congresswoman McCollum even last year and Congressman Kennedy 
had also raised it last year, and Congressman Gutknecht and I 
got elected together and have been working together on this 
issue for a number of years. Each of them has been a strong 
advocate in the House for an effective, bipartisan anti-meth 
strategy. I'm looking forward to working with them on new 
legislation for this Congress, and I hope that the information 
we gather at this hearing will help us achieve that goal.
    Meth is one of the most powerful and dangerous drugs 
available. It is also one of the easiest to make. It's perhaps 
best described as a perfect storm, a cheap, easy-to-make and 
plentiful drug with devastating health and environmental 
consequences, consuming tremendous law enforcement and other 
public resources, that is extremely addictive and difficult to 
treat. If we fail to get control of it, meth will wreak havoc 
in our communities for generations to come.
    This is actually the eighth hearing focusing on meth held 
by this subcommittee since 2001, and the fifth field hearing. 
In places as diverse as Indiana, Arkansas, Hawaii and now 
Minnesota, I have heard gripping testimony about how this drug 
has devastated lives and families. But I've also learned about 
the many positive ways the communities have fought back, 
targeting the meth cooks and dealers, trying to get addicts 
into treatment, and working to educate young people about the 
risks of meth abuse.
    At each hearing, then, we try to get a picture of the state 
of meth trafficking abuse in the local area. Then we ask three 
questions. First, where does the meth in the area come from, 
and how do we reduce its supply? Second, how do we get people 
into treatment, and how do we keep young people from starting 
meth use in the first place? And finally, how can the Federal 
Government partner with State and local agencies to deal with 
this problem?
    The meth abuse situation in Minnesota, as elsewhere, is 
deeply troubling. According to a study by the Hazelden 
Foundation last year, meth-related deaths, emergency room 
episodes, and law enforcement seizures of meth labs, all 
increased steadily from 2000 to 2003. Emergency rooms in the 
Twin Cities saw the number of meth-related incidents more than 
double between 1995 and 2002. What used to be almost an 
exclusively rural problem in the State has now taken hold in 
the suburbs and urban areas.
    The next question, that of meth supply, divides into two 
separate issues, because this drug comes from two major 
sources. The most significant source in terms of the amount 
produced comes from the so-called ``super labs,'' which until 
recently were mainly located in California, but now are 
increasingly located in northern Mexico. By the end of the 
1990's, these super labs produced over 70 percent of the 
Nation's supply of meth, and today it is believed that 90 
percent or more comes from Mexican super labs. The super labs 
are operated by large Mexican drug trafficking organizations 
that have used their established distribution and supply 
networks to transport meth throughout the country.
    The second major source of meth comes from small, local 
labs that are generally unaffiliated with major trafficking 
organizations. These labs, often called ``mom-and-pop'' or 
``clan'', clandestine labs, have proliferated throughout the 
country, often in rural areas. The total amount of meth 
actually supplied by these labs is relatively small; however, 
the environmental damage and health hazard they create in the 
form of toxic chemical pollution and chemical fires make them a 
serious problem for local communities, particularly the State 
and local law enforcement agencies forced to uncover and clean 
them up. Children are often found at meth labs and have 
frequently suffered from severe health problems as a result of 
hazardous chemicals used.
    Since meth has no single source of supply, no single 
regulation will be able to control it effectively. To deal with 
the local meth lab problem, many States have passed various 
forms of retail sales restrictions on pseudoephedrine products, 
like cold medicines. Some States limit the number of packages a 
customer can buy; others have forced cold medicines behind the 
counter in pharmacies. Retail sales restrictions could have a 
major impact on the number of small labs.
    However, retail sales regulations will not deal with the 
large-scale production of meth in Mexico. That problem will 
either require better control in the amount of pseudoephedrine 
going into Mexico--which appears to be on the rise--or better 
control of drug smuggling on our Southwest border, or both. The 
Federal Government, in particular the Departments of Justice, 
State, and Homeland Security, will have to take the lead if we 
are to get results.
    The next major question is demand reduction: How do we get 
meth addicts to stop using, and how do we get young people not 
to try meth in the first place? I am encouraged by the work of 
a number of programs at the State and local level, with 
assistance from the Federal Government, including drug court 
programs, which seek to get meth drug offenders into treatment 
programs in lieu of prison time; the Drug-Free Communities 
Support Program, which helps the work of community anti-drug 
coalitions to bring drug use prevention education to young 
people; and the President's Access to recovery treatment 
initiative, which seeks to broaden the number of treatment 
providers. But we should not minimize the task ahead; this is 
one of the most addictive drugs, and treatment programs 
nationwide have not had a very good success rate with meth.
    The final question we need to address is how the Federal 
Government can best partner with State and local agencies to 
deal with meth and its consequences. Currently, the Federal 
Government does provide a number of grants and other assistance 
programs to State and local agencies--in addition to the 
programs I mentioned earlier, the Byrne Grants and COPS Meth 
Hot Spots programs help fund anti-meth enforcement task forces; 
the DEA and other agencies assist State and local agencies with 
meth lab cleanup costs; and the Safe and Drug-Free Schools 
program and the National Youth Anti-Drug Media Campaign helps 
schools and other organizations provide anti-meth education.
    However, we will never have enough money, at any level of 
government, to do everything we might want to do with respect 
to meth. That means that Congress, and State and local 
policymakers, need to make some tough choices about which 
activities and programs to fund, and at what level. We also 
need to strike the appropriate balance between the needs of law 
enforcement and consumers, and between supply reduction and 
demand reduction.
    The House and Senate are currently considering a number of 
different proposed bills concerning meth, and I am hopeful that 
we will be able to take strong, effective action before the end 
of this year. I recently introduced H.R. 1446, which would 
authorize new regulations of precursor chemicals and provide 
assistance to State, Federal and local law enforcement. My 
colleague, Mr. Kennedy, has also introduced H.R. 13, the CLEAN-
UP Meth Act, which among other things provides funds to help 
States and localities find and clean up meth labs, including 
expanding assistance to the Community Oriented Policing 
Services, COPS grant program.
    We have an excellent group of witnesses today who will help 
us make sense of these complicated issues. On our first panel, 
we are joined by Mr. Timothy Ogden, Associate Special Agent in 
Charge of DEA's Chicago Field Division; Minnesota State Senator 
Julie Rosen, who has been a strong leader in the fight against 
meth here in Minnesota; Sheriff Terese Amazi of Mower County 
and Sheriff Brad Gerhardt of Martin County; Lieutenant Todd 
Hoffman of the Wright County Sheriff's Office; and Ms. Susan 
Gaertner, the Ramsey County attorney.
    On our second panel, we are pleased to be joined by 
Commissioner Michael Campion of the Minnesota Department of 
Public Safety; Mr. Bob Bushman, a special senior agent at the 
Minnesota Bureau of Criminal Apprehension, and president of 
both the Minnesota State Association of Narcotic Investigators, 
and the Minnesota Police and Peace Officers' Association; Mr. 
Dennis Miller, drug court coordinator for the Hennepin County 
Department of Community Corrections; Ms. Kirsten Lindbloom, 
coordinator of the Mower County Chemical Health Coalition; and 
Mr. Buzz Anderson, president of the Minnesota Retailers 
Association. We thank everyone for taking the time to join us 
today, and look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.001
    
    [GRAPHIC] [TIFF OMITTED] T4891.002
    
    [GRAPHIC] [TIFF OMITTED] T4891.003
    
    Mr. Souder. The first panel is all here, is that correct, 
except Ms. Gaertner? We'll swear her in separately.
    As an oversight committee, it's our standard practice to 
swear in all our witnesses and ask them to testify under oath. 
You'll join Mark McGuire, who did this a few weeks ago in front 
of our committee, which gave a lot more publicity to what we do 
in our committee, and so if you'll each rise, raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    Mr. Gutknecht. Mr. Chairman, I'm in the process of turning 
off my cell phone, and I might recommend that others check 
theirs as well.
    Ms. McCollum. Mine is off.
    Mr. Souder. Mr. Ogden, we're going to start with you. 
Welcome.
    Mr. Ogden. Good morning, sir. Thank you.

  STATEMENTS OF TIMOTHY J. OGDEN, ASSOCIATE SPECIAL AGENT IN 
  CHARGE, CHICAGO FIELD DIVISION, DEA, ACCOMPANIED BY DENNIS 
   WISCHERN, ASSISTANT SPECIAL AGENT IN CHARGE, INDIANA; AND 
THOMAS KELLY, ASSISTANT SPECIAL AGENT IN CHARGE, MINNESOTA AND 
  NORTH DAKOTA; JULIE ROSEN, MINNESOTA STATE SENATOR; TERESE 
 AMAZI, SHERIFF, MOWER COUNTY; BRAD GERHARDT, SHERIFF, MARTIN 
   COUNTY; LIEUTENANT TODD HOFFMAN, WRIGHT COUNTY SHERIFF'S 
      OFFICE; AND SUSAN GAERTNER, ATTORNEY, RAMSEY COUNTY

                 STATEMENT OF TIMOTHY J. OGDEN

    Mr. Ogden. Chairman Souder and distinguished Members of 
Congress, my name is Timothy Ogden, and I am the Associate 
Special Agent in Charge of the Drug Enforcement 
Administration's Chicago Field Division. On behalf of DEA 
Administrator Karen Tandy, and Chicago Field Division Special 
Agent in Charge, Richard Sanders, I appreciate your invitation 
to testimony today regarding DEA's efforts to combat 
methamphetamine in the State of Minnesota.
    The DEA Chicago Field Division's area of responsibility 
includes the northern half of Illinois, as well as the States 
of Indiana, Minnesota, North Dakota and Wisconsin. Accompanying 
me today are Thomas Kelly, who serves as the Assistant Special 
Agent in charge of the DEA Minneapolis District Office, and 
Dennis Wischern, who serves as the Assistant Special Agent in 
charge of DEA's Indianapolis District Office.
    Mr. Kelly directs all the DEA operations in the States of 
Minnesota and North Dakota, and he works hand in hand with our 
law enforcement counterparts in those States. Mr. Wischern 
directs all enforcement operations in Indiana after serving a 
number of years in DEA headquarters, and he's truly regarded as 
an expert on methamphetamine issues. Combined we have over 70 
years in drug law enforcement experience.
    Methamphetamine is not a new drug threat to DEA, but until 
the late 1980's methamphetamine was a relatively unknown drug 
outside the States along the west coast. However, by the early 
1990's, methamphetamine was gaining in popularity and began 
spreading across the country. Today few places in the United 
States have not felt its impact, and Minnesota is no exception.
    In Minnesota and across the Nation we have initiated and 
led successful enforcement efforts focusing on methamphetamine 
and its precursor chemicals and have worked jointly with our 
Federal, State and local law enforcement partners to combat 
this drug. As a result of DEA's efforts and those of our law 
enforcement partners in the United States and in Canada, we 
have seen a dramatic decline in methamphetamine super labs 
operating in the United States, but with this drop in domestic 
super lab activity, we have also seen an increase in super lab 
activity in Mexico.
    No precise breakdown is currently available, but drug lab 
and seizure statistics suggests that roughly two-thirds or more 
of methamphetamine utilized in the United States comes from the 
larger super labs, increasingly in Mexico, and that about one-
third of the methamphetamine consumed in this country comes 
from medium to small domestic laboratories.
    Attacking the methamphetamine threat in Minnesota is a two-
prong problem. First, large quantities of methamphetamine are 
produced in Mexico by drug trafficking organizations that 
smuggle into the United States and then transport it throughout 
the country and into States like Minnesota. These Mexican 
traffickers also control the transportation distribution of 
bulk sales of cocaine, marijuana and heroin.
    Second, like so many other Midwestern States, law 
enforcement agencies in Minnesota are faced with a large number 
of small toxic labs. These labs produce relatively small 
quantities of methamphetamine, but have the major impact on the 
people of Minnesota. We are well aware that combating this drug 
requires a concerted effort by law enforcement, and we are 
working with our partners in Minnesota and across the country 
to fight methamphetamine.
    Another toll in this fight comes from DEA's Office of 
Training, which shares our expertise by training thousands of 
State and local partners from all over the country, as well as 
our international counterparts. Since 1998, DEA has trained 
more than 8,600 State and local law enforcement officers, as 
well as 1,900 DEA employees to conduct methamphetamine 
investigations and safely dismantle methamphetamine 
laboratories that are seized.
    In the last 4 years DEA has provided clandestine laboratory 
training to more than 150 officers from Minnesota. Of this, 52 
have received training in the past 9 months.
    The DEA also provides cleanup assistance to law enforcement 
agencies across the country as they battle this drug. DEA's 
Hazardous Waste Program, with the assistance of grants to State 
and local law enforcement, supports and funds the cleanup of 
the majority of the laboratories seized in the United States.
    In fiscal year 2004, DEA administered 10,061 State and 
local clandestine laboratory cleanups, costing $18.6 million. 
In Minnesota, from fiscal year 2002 through 2005, the DEA 
administered 947 lab cleanups at a total cost of $1,202,180.00, 
and over the past 9 months the DEA has administered 144 
cleanups in Minnesota at a cost of $280,000.
    Demand reduction is an important aspect in law 
enforcement's fight against methamphetamine, and the DEA 
Minneapolis District Office is actively engaged in this effort 
to raise the awareness about the dangers of methamphetamine.
    Since 2003, our demand reduction coordinator has conducted 
more than 100 presentations throughout the State, reaching 
approximately 9,700 people. Many of these presentations began 
as general drug-related topics but then invariably evolved into 
methamphetamine discussions.
    More than any other controlled substance, methamphetamine 
endangers children through the exposure to drug abuse, neglect, 
physical and sexual abuse, toxic chemicals, hazardous waste, 
fire and explosions. In response to these tragic phenomena, the 
DEA has enhanced its Victim/Witness Program to identify, refer 
and report these incidents to the proper State agencies. This 
program insures that endangered children are identified and 
that each child's immediate safety is addressed at the scene 
through coordination with child welfare and healthcare service 
providers.
    In closing, I want to assure you that the DEA is fully 
aware that the fight against methamphetamine must continue, and 
we'll do everything we can to stop the spread of this drug. The 
DEA is fighting methamphetamine on multiple fronts, and the 
Minneapolis District Office will continue to work closely with 
our partners to combat this insidious drug.
    I want to thank you for holding this hearing and 
recognizing the importance of this issue. I also want to thank 
you for giving me the opportunity to testify here today. My 
colleagues and I will be happy to answer any questions you may 
have at the appropriate time. Thank you, sir.
    Mr. Souder. Thank you. Senator Rosen.
    [The prepared statement of Mr. Ogden follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.004
    
    [GRAPHIC] [TIFF OMITTED] T4891.005
    
    [GRAPHIC] [TIFF OMITTED] T4891.006
    
    [GRAPHIC] [TIFF OMITTED] T4891.007
    
    [GRAPHIC] [TIFF OMITTED] T4891.008
    
    [GRAPHIC] [TIFF OMITTED] T4891.009
    
                    STATEMENT OF JULIE ROSEN

    Ms. Rosen. Thank you, Mr. Chair, and fellow Honorable 
Members.
    I just want to thank you very much for being here, and I am 
going to tweak my testimony here because, obviously, you're 
very well briefed in understanding methamphetamine issues, so 
we are not starting at square one, at a place that I was about 
a year and a half ago.
    I had fellow Senate members in my caucus that repeatedly 
say, well, what's the big deal about meth? But apparently you 
all know what the big deal is about meth, and that's why you're 
here, and I really appreciate this opportunity to talk about 
what's going on in Minnesota, and I will gear this testimony 
more toward the legislation and our hopes for Minnesota 
legislation and our fight against meth for the future.
    Because even though we passed probably one of the most 
aggressive and comprehensive pieces of legislation this year, 
in the Nation, actually, it's probably the best meth bill in 
the Nation, we still have a lot of work to do.
    If you're not familiar with the Minnesota meth bill, it 
deals with five major parts. The increase, No. 1, the 
cornerstone of the bill is the restriction on the 
pseudoephedrine, and that was a huge deal and a lot of effort 
put out by many, many people.
    The other part, another two parts were the increase in 
penalties for child endangerment and for the attempt to 
manufacture meth, a very important part of this bill, too.
    The fourth piece of this bill, that I'm very proud of and 
that many States are looking at, is the remediation and cleanup 
issue, how we handle these contaminated properties and how we 
disclose them with the realtors and to private owners. That is, 
that we worked on that very, very hard, and I think we've got a 
good piece of legislation there, and I'm hoping to watch its 
progress carefully; and another part of this bill is the 
treatment. There's money in this bill for treatment.
    Now, that's a little more nebulous, I'm not quite sure how 
we're going to do that, but it's grants to counties that can 
extend their treatment program, which is very important. As you 
know, the 28-day program for meth does not work, so we need to 
provide to the counties more funds, more revenue to be able to 
provide a longer treatment program.
    There is some education in this bill for schools, but that 
is an area that I would like to talk to you about; education, 
the materials and funding for this, and for law enforcement, 
but I will get back to that later. As you can see, I don't have 
a formal--I think that I'm talking from the heart, and I 
appreciate this because I haven't talked about meth for a 
couple weeks now, I'm going through withdrawals. So I 
appreciate this, and they don't call me Senator Meth for 
nothing.
    I got involved in this issue about 2\1/2\ years ago because 
the sheriff, Sheriff Gerhardt, brought it to my attention. I 
live about 8 miles from the Iowa border, and it's very evident 
whatever other States are doing in the surrounding area of 
Minnesota it directly affects our State, and that's exactly 
what happened, and there was many people that were working on 
the meth issue but bits and pieces all over.
    So we pulled together, and this fine sheriff, too, is a 
part of Minnesota Meth Lab Task Force, and we developed a very 
fine bill last year, and it's a better bill this year, and 
we've got the support of the Governor, which was extremely 
important. You have to have the support from the Governor, or 
the attorney general's office in some States are dealing with 
it, and he was completely supportive and, like I said, we 
passed one of the best meth bills in the Nation, and because of 
that bill many States are asking for help. We helped Wisconsin 
out. We're trying to work on a Midwest comprehensive meth 
approach, and it doesn't make sense to continue to re-create 
the bill because there is good legislation out there, and I'm 
hoping that with the legislation that's coming down on the 
Federal side, it's not going to preempt what we have done on 
the State side if we have a stronger bill. So that's something 
that I really wanted to mention that, please, don't weaken our 
bill by something that's done on the Federal side.
    I had the opportunity and pleasure to talk with the Eastern 
Attorney General's Association a couple weeks ago on 
methamphetamine, and it was very interesting. There was some 
there that gave me that deer-in-the-headlight look, that they 
had not a clue what myself or the gentleman from Iowa was 
talking about, and then there was some that were starting to 
get it, and that's the issue with meth. Either you have the 
people that you understand meth and have dealt with it or know 
somebody or have heard of a horrendous story or people are 
going, like my colleague, what's the big deal with meth. That 
disparity is getting smaller and smaller and closer together, 
but we still have a tremendous amount of work to do, a 
tremendous amount of education to do.
    There are some things that we can work on on the Federal 
side is a national Web site for standard cleanup measures, 
especially for children. We need to have a national view of how 
we handle these contaminated properties, and we need to have 
more research done for how it's affecting the children. I have 
been involved in a drug endangered children's program for 
several years now, only legislator that ever shows up. I can't 
understand that, and methamphetamine and when the children are 
in the presence of a contaminated home or where they're cooking 
meth, we have no clue what it's done to the children, and I'd 
like to see a national--this is kind of my wish list. I'd like 
to see a national clearinghouse for meth education materials 
and have access to them.
    In Minnesota we actually have a very good Web site that's 
put out by the Department of Health, but many States are 
struggling with it, and we get a tremendous amount of calls 
saying please help us. We need information. We don't have--this 
is really about the only meth literature that's available right 
now, and I put this out through my office, and there is the--
what's it called, the--oh, it's the Partnership for Drug-Free 
America apparently has a wonderful set of meth material that's 
been reviewed by some people in the State, and they are very 
excited about that. However, it costs $20,000 a year per State, 
and we don't even have $25,000 a year to get that information.
    Education is key, especially for our schools, and the calls 
that are coming in to the Department of Health and to the 
Bureau of Criminal Apprehension on meth education is 
tremendous, and that's where we can help.
    The Government what I would hope, too, can provide a little 
stronger and not so nebulous treatment guidelines. They talk 
about adequate. Well, what is adequate? And we are even 
struggling with that in our State. We can't seem to get our 
hands around exactly what needs to be done. There are many 
other programs out there that do work, but we'd like to be able 
to say this we do know works. We do know that we need at least 
6 months. We do know we need an after-treatment program. We do 
know that we need to direct them with antidepressants and 
medical health and we need--we do know that we need to gear our 
treatment programs more for the individual. The adolescent 
program has to be much different than the mother of a child 
program, because we're seeing meth affect everybody. This is 
not just the 25 to 45-year old blue collar worker anymore. This 
is in our children, our schools, and you all know that. It's 
the only drug right now that 50 percent are females, soccer 
moms. There are 13, 14-year old girls on our Lower Sioux 
Reservation that are not even paying for meth. They are using 
it for sex, and that's how they get their meth, is for sex, and 
it's just hit our Native American population extremely hard. 
The African American population, our community, I should say, 
in northern Minneapolis just testified in one of our committees 
this spring that it is--meth has been found in the African 
American community, and that is very unusual. That is starting 
to happen, so we're really concerned about that.
    But the No. 1 thing that the Federal Government can do is 
restrict and enforce the manufacturing or importation of the 
ephedrine and pseudoephedrine into the United States from 
Canada, because right now 80 percent that is manufactured is 
coming in through Canada in the United States. That's 
tremendous. We all know that's not for the sniffles and the 
cold, and they have an open market, and we need to address that 
market. We need to send a clear message. A couple other areas 
that I----
    Mr. Souder. You need to kind of summarize. I let you go on 
past the 5-minutes.
    Ms. Rosen. Oh, I did? I'm sorry.
    We need to have equality. There's a disparity between the 
Hot Spots money between the States. Iowa, Wisconsin get a 
tremendous amount of Hot Spots money, and we are not getting 
our fair share.
    So, please, if you can, work on any of the money that's 
available through the Federal Government, I would appreciate 
that. And I appreciate this opportunity, and I do want to say 
that Target Corp. in Minnesota here was instrumental in 
providing a corporate agenda for how they handle 
pseudoephedrine, and a lot of other corporations and their 
competitors have followed suit, and I wanted to say on the 
record thank you to Target for being responsible with that.
    Mr. Souder. Thank you.
    Ms. Rosen. Yes, thank you.
    Mr. Souder. Sheriff Amazi.

               STATEMENT OF SHERIFF TERESE AMAZI

    Ms. Amazi. Thank you, Mr. Chair, and I really want to thank 
you for allowing me the opportunity to testify here today.
    From a very local perspective, I can tell you what it has 
done to our jails. Last year it cost Mower County approximately 
$200,000, and that is just in our jail, just with medical costs 
and housing and prisoners. Our jail population on any given day 
is about 50 percent meth-related crimes, whether they're high 
on methamphetamine when they commit the crimes or they're doing 
the crime because they want more methamphetamine. That is what 
we see.
    In Mower County we've really taken a community approach. We 
do a lot of education. I go out and I know I speak a lot about 
methamphetamine. I myself have distributed about 6,000 of the 
meth lab, Watch Your Community brochures that we have 
available, and those are available to us through the DEA, and I 
really want to thank those folks, because they do provide a 
tremendous asset to Mower County. Mr. Ogden was saying that 
they train 52 individuals to do meth lab cleanups. Four of 
those individuals were from Mower County in the last 9 months. 
So we truly do use their resources. We also do depend upon the 
Byrne Grants, and the Byrne Grant comes to us through our task 
force, and we have in southeastern Minnesota a narcotics task 
force, and we cannot operate without the Byrne Grant. They 
supply much of the funding that goes with the education. They 
also supply the enforcement, and without those, without some 
degree of fear of getting caught, we have a rampant problem. I 
know we've fought this the same way for years and years. We 
don't seem to gain headway. However, I can say we do make a 
difference. We do at least try to make a difference in getting 
these people.
    A lot of our treatment currently consists of incarceration, 
because that is the only one that works. I know I had a father 
that said the best thing you did for me was arrest my son and 
keep him in your jail, the Mower County jail, because that is 
what he needed. He is currently in the St. Cloud Penitentiary, 
however, is turning his life around, had begun to turn his life 
around after serving a year in Mower County Jail, because he 
needed that drying out time, he needed to get away from his 
friends, his drug friends, and was able to get out of the 
county and away to a different area. He was able to turn his 
life around and, hopefully, when he comes out of St. Cloud 
he'll be able to continue.
    So those are just personal testimonies. I know, Congressman 
Gutknecht, you were in Mower County last September for the 
floods. Previous in that day we had done some rescues of 
individuals that were landlocked by the water, and floating 
down the river was a portable meth lab. So we know we've got 
it.
    The rural area truly lends itself to meth labs. They make 
it in the trunk of cars, they dump it in the ditches. We see 
them in homes, we see it with children. Just about every meth 
lab that we have busted we see children, and we see two and 
three children at a time, and they are sick. We take them 
immediately to the emergency room. That is a cost that is, you 
know, taken upon by the county. So we're seeing it at a county 
level, and those are just costs that we see currently and will 
see consistently, because we can't allow those children not to 
get medical treatment. We have to do that.
    Also, our people that are incarcerated, they need medical 
treatment as well, and dental, a lot of dental. We don't 
provide corrective dental surgeries. We are truly in the aspect 
of extraction. That is what we do, summary building, but at a 
medical facility, we cannot do that. So we see a lot of 
individuals who have liver problems, breathing problems. When 
they come down off the methamphetamine, they're suicidal. We 
have a lot of people that are in paper suits up in our jail, 
and that is how we detox them, because our detox facilities are 
not set up for methamphetamine, unfortunately, because these 
individuals are very dangerous and they're very suicidal. They 
can go off at a drop of a hat, and they do, and so they stay in 
our jail facility, and to detox they're in paper, 
unfortunately, to minimize the risk of suicide.
    So these are just some of the local level aspects. You'll 
also hear from our Chemical Health Coalition that does a lot of 
community education as well. We partner up and we go out as a 
team and talk to kids, talk to families, talk to parents, a lot 
of parent education, and I don't just do it in Mower County. I 
go to Steele County, I go to Freeborn County, asked to do a lot 
of presentations.
    So I really do appreciate the ability to come here today, 
give you just a small, small view of what's occurring in Mower 
County, but I do appreciate that, and thank you for having me 
here today.
    Mr. Souder. Thank you. Sheriff Gerhardt.

               STATEMENT OF SHERIFF BRAD GERHARDT

    Mr. Gerhardt. Chairman Souder, and the distinguished 
members of the committee, I, too, thank you for allowing me to 
be here today, and I can echo what you've heard up to this 
point and, hopefully, I don't necessarily have to repeat that, 
but I can speak for the issues that Sheriff Amazi had, because 
we're just two counties to the west from her, so we have the 
same or similar issues. We're probably about half the size of 
the population, however.
    Our jail issue is the same to the point where we're in the 
process of establishing a justice council and starting to build 
a new jail. As my chief deputy and members of my county board 
right now are at a jail summit in St. Cloud put on by the 
Association of Minnesota Counties where approximately a third 
of the counties in the State of Minnesota, one-third of the 87 
counties are looking at building new jails, and meth is the 
tail that's wagging the dog. That's really what's pushing that 
issue right there, right now, and I would say more than half to 
two-thirds of our inmates in our jail are meth or meth-related 
inmates.
    I'm going to go a little different route here and, as 
Senator Rosen stated earlier, she represents our area, and we 
sat down and met with her approximately 2, 2\1/2\ years ago and 
started telling her about the whole meth issue. But we're 
coming up with some new philosophies, some new thoughts on what 
we should do with methamphetamine, and we've certainly done our 
share in Martin County to educate and to respond to the meth 
lab issues, to train people, and to really hit the area of 
prevention extremely hard. We're offering reward money for 
information for--towards the prosecution of a methamphetamine 
lab. We're extremely excited over the fact that we have the 
legislation now from the State of Minnesota, which will 
hopefully reduce our local labs, and we can concentrate more on 
the regional effort, and you referred to earlier the Mexican 
meth and the super lab methods coming into Minnesota and really 
start to make a dent into that and really encourage my agents 
in our drug task force, which is different than Sheriff Amazi's 
task force, to work with the DEA and other Federal agencies on 
that front.
    I have a handout that I have laid over there on the table, 
and on the third page of that handout I have the Project 
Surround philosophy that's being developed in Martin County. 
And this philosophy is somewhat responsive and somewhat 
prevention, and it's a philosophy created locally after a class 
of blended leadership students from Fairmont attended the week 
long Blandon retreat. The Blandon Foundation is a Minnesota 
foundation created for rural Minnesota after tragedy struck the 
Blandon family in the middle of the 20th century. They realized 
that rural areas, specifically rural Minnesota, need support 
and leaders need to be trained. I personally happened to be an 
attendee at the second session for the Fairmont area.
    Project Surround involves the community working with at-
risk youth. They learned early on the youth involved need a 
sense of connectiveness and also they need to contribute to 
society, as well as have long-term case management. So with 
that in mind, the Services for Challenging Youth Committee was 
formed in the Martin County area, and the following initiatives 
were created.
    In Martin County we have kinship and Martin County 
mentoring, and that satisfies the connectiveness that the 
children need to a community. We have a brief strategic family 
therapy and also weekend consequential camp. The consequential 
camp helped with contributions to society and, finally, 
addressing the issue of long-term case management we are 
currently working on a model for after school programming, and 
we currently have it 70 percent funded. This program includes a 
meal, which is very important for our challenging youth, 
recreation time and time to complete the homework, family 
therapy and individual therapy for chemical dependency issues, 
as well as vocational skills component involving a doctoral 
candidate who is doing the thesis on this program.
    We're also in the process right now to get a doctoral 
candidate to look at the economics of this program, this after 
school program, and I'll fill you in on some more of the 
details in a little bit, from the University of Chicago to 
study the potential out-of-home placement savings that this 
program will, hopefully, address.
    The whole idea behind our after school program, which will 
run from 3 to 8 p.m. is, quite honestly, to break the cycle. 
We're not going to see huge results early on, within the first 
couple of years, but whether it's meth or whether it's alcohol 
or whatever, we need to break the cycle and the cycle of abuse, 
and a lot of these children that are going to be involved in 
this after school program come from homes that have the 
chemical dependency issues and the related abuse issues that go 
along with that.
    So we're embracing that philosophy in Martin County, and as 
you can probably tell, the biggest issue is funding. We're 
talking a $191,000 program for 176 school days out of the year, 
and we're about $130,000 to that point right now, and this way 
that we can have these kids and talk to them.
    I also happen to be a counselor for the Weekend 
Consequential Camp, and there are several key components that 
are missing. One is a positive male role model in the lives of 
about 75 percent of the students that attend these camps and 
the other one is that I like being here at this camp, even 
though I'm working really hard and I'm really tired, I don't 
want to go home, and those are the things that we're hearing 
from the kids who come from the meth houses and the meth homes. 
So we have to give them the skills to cope and to deal with 
those issues that meth is creating.
    Impact on out-of-home placement, just Martin and Faribault 
County last year alone out-home placement costs $1.7 million on 
a local level. If we can spend tens of thousands of dollars up 
front on prevention and to work with these youth that are at 
risk, we could probably save millions of dollars down the road, 
and that's the philosophy that we're embracing.
    Again, I'd like to thank the committee for having me here, 
and I'll be open to any questions you may have.
    [The prepared statement of Mr. Gerhardt follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.025
    
    [GRAPHIC] [TIFF OMITTED] T4891.026
    
    [GRAPHIC] [TIFF OMITTED] T4891.027
    
    Mr. Souder. Thank you. Lieutenant Hoffman.

              STATEMENT OF LIEUTENANT TODD HOFFMAN

    Mr. Hoffman. Mr. Chairman and committee members, thank you 
for inviting me here.
    Wright County is a rural county just west of the cities 
here. In Wright County we found that you really need the three-
prong approach to fight methamphetamine to decrease it. We need 
the education, we need the treatment, and we need enforcement. 
If you take away any of those three, and we're not going to 
decrease the meth in our area.
    Education, Wright County started a project called MEDA. 
It's Meth Education and Drug Awareness. It's a coalition of law 
enforcement officers, treatment counselors, educators, parent/
teacher organizations, different branches of the Government, to 
try to get together and come up with different ways of 
educating our citizens. We're trying to break it up into not 
only a county organization but a city, a local organization 
that are able to get out in the communities in the various 
cities and educate the citizens there, give them some ownership 
in this fight against methamphetamine. We're trying to get more 
people out there, like the sheriff here going out there, 
they're giving presentations, but now we're getting citizens 
going out and giving presentations at the Kiwanis, Lions Club, 
to Boy Scouts and Girl Scouts. We're bringing in presenters 
from all over the United States to come in and gave them their 
stories. So education in Wright County is very important.
    Treatment, treatment is also very important. We found, like 
some of the other representatives said, 28-day program doesn't 
work, OK. So we talk to the counselors about what does work. 
What the counselors in our area are saying, they need the 
drying-out process, they need to be in jail 6 months, 7 months, 
a year, until they're finally dried out enough so that the 
treatment can work. Well, do they get the treatment after 
they're in prison or during prison? They need it during their 
jail time in prison. Right now, of course, we don't have 
funding. The local county jails don't have funding to provide 
treatment while they're in jail. Even our prison systems now, 
the treatment programs in prison is lacking. We need more 
funding for the treatment while they're in prison, while 
they're in the county jails. So treatment is a very important 
factor.
    Enforcement, enforcement, we need funding for enforcement, 
especially in the rural areas. We have three police departments 
in Wright County. Two of the three police departments have 
either three officers or five officers. They can't afford right 
now, out of their city budget, to put one person on a task 
force or have a narcotics unit to fight drugs in our area. It's 
just--the finance area can't cover that in their budget. We 
need some type of a funding. Byrne Grant is great. Byrne Grant 
provides a lot of money for Minnesota. I forget if it's $8 
million, how much it is, but that's a good start, but it's not 
enough.
    The funding for law enforcement officers due to Byrne 
funding has not increased in probably 5, 6 years. The funding 
that goes directly to the drug task force officers has not 
increased. It needs to increase. We need to get that money out 
to the rural cities that can't afford to put an officer on a 
drug task force. We need assistance not only on a Federal level 
but a local level in giving that money directly to some of 
these outstate agencies, including Wright County and Mower and 
the southern border of Iowa.
    The methamphetamine, Minnesota Legislature has helped us 
out quite a bit with this pseudoephedrine legislation. It's 
going to help out the mom-and-pop meth labs. It's going to 
reduce the number of meth labs in rural America, rural 
Minnesota, I should say, substantially. But, again, 80 percent 
of the meth in Minnesota comes from outside of Minnesota. So it 
will help the mom-and-pop labs, but due to increased amounts of 
methamphetamine coming from Mexico and Mexican nationals 
bringing them up into Minnesota has a dramatic effect on Wright 
County.
    Right now we have a problem with identifying these drug 
rings, the Mexican national drug rings. No documentation, you 
know, you arrest somebody, you have no idea who they are. If 
they're able to be deported, we usually see them back within 
the month, and there's really no way to track some of these 
individuals right now. We need some type of help from the 
Federal Government and decreasing the ability from this meth 
and people that are providing the meth from coming across our 
borders, not only the Mexican border but also from Canada. So 
any assistance that the Federal Government can help us on that 
aspect, it would be greatly appreciated. Other than that, I'll 
stop my comments right now.
    Mr. Souder. Thank you. Ms. Gaertner, we swear in all our 
witnesses. If you'll stand and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that she responded in the 
affirmative. Thank you for joining us today.

                  STATEMENT OF SUSAN GAERTNER

    Ms. Gaertner. Thank you, Mr. Chairman, members of the 
committee. I am truly honored to be here this morning, and it 
is a difficult task to talk about this issue in 5 minutes, 
particularly since I'm a lawyer, but I'll do my very best to 
keep my remarks brief and highlight what I consider the most 
important points.
    I have been a felony prosecutor in this community for over 
two decades, and I have never encountered a crime trend or 
social issue that I have found as frightening and as having 
such an impact on my community as the methamphetamine epidemic. 
It used to be a rural phenomena. It is not anymore. We are 
beginning to feel the effects very intensely in Ramsey County, 
which is a jurisdiction of over half a million people, 
including St. Paul, where we are today. Ramsey County is waking 
up to its own meth problem.
    Methamphetamine drug charges accounted for nearly 29 
percent of all our drug cases last year, 301 cases. That is up 
from only 20 cases as recently as 1999. In fact, 
methamphetamine drug charges now account for 10 percent of all 
the felonies we prosecute in Ramsey County. That is just the 
drug charges themselves, and, obviously, what we're seeing is 
violent crime. Obviously, few buy methamphetamine. I could give 
you countless examples. I'll give you only one.
    We are currently prosecuting a man who was in a fit of 
paranoia. Fueled by his methamphetamine use, he stabbed his 
wife multiple times and beat her with a broom in the presence 
of their very young children. I mentioned that case in 
particular because of Ms. McCollum's commitment to domestic 
abuse in our community. It's having a negative impact on that 
kind of crime and really across the board with violent crimes. 
But what to me is almost the most frightening aspect of this 
epidemic is how it's affecting our children.
    In Ramsey County, about 40 percent of our child protection 
cases involve drug use. Of those cases, 80 to 90 percent 
involve methamphetamine use. We're feeling that problem, the 
meth problem in our child protection cases, but we anticipate 
it will only get worse. In Carver County, which is the 
neighboring county, it's not as populated, 90 percent of the 
children in foster care in March 2004 were there because of 
methamphetamine.
    Now, statewide last year methamphetamine accounted for 
nearly 40 percent of drug charges, and the number of meth 
offenders in our State prisons, you've probably heard that, 
you'll hear that again, has nearly doubled in 2 years. The cost 
now in Minnesota of methamphetamine use has topped $130 
million, according to the Minnesota Department of Corrections, 
including law enforcement corrections, prosecution, child 
welfare treatment and environmental cleanup costs. But what it 
doesn't include in that figure is other costs related to drug 
use, such as healthcare costs, as I mentioned domestic abuse, 
identity theft, burglary, assault. I recently read that in the 
west coast jurisdictions they're estimating that 80 to 90 
percent of their identity theft cases are connected to 
methamphetamine use. So we can fully expect that multiple 
consequence will be occurring in our jurisdictions as well.
    As I'm sure you know, the problem can get worse. We expect 
it will get worse. According to a study conducted by economists 
in Multnomah County, which is Portland, we look to that because 
it's a comparable jurisdiction to Ramsey County, they found 
that meth-related problems cost each household in that 
jurisdiction $363 in 2004, and that doesn't even include law 
enforcement costs, such as jails, prosecution costs, things of 
that nature, just other kinds of costs not related to criminal 
justice.
    So what do I think we need to do? I very much believe in a 
three-prong approach. First of all, interdiction. The Minnesota 
State Legislature has made very significant strides. I commend 
Senator Rosen and her colleagues for getting at the 
availability of pseudoephedrine in our community so that can 
have an impact on the meth labs, which are so dangerous, but 
that is just a first step. When you consider, as has been said 
many times, 80 to some percent of this drug comes from super 
labs, we need to be looking at, first of all, and this has been 
mentioned, massive quantities of pseudoephedrine that are 
unlawfully imported into this country that far exceed the needs 
of allergy suffers, such as myself. It's coming in here and 
it's getting turned into methamphetamine; and, second of all, 
even if it's not being lawfully imported into this country, 
we're seeing the final product, the methamphetamine coming from 
Mexico. We have to interdict this very dangerous drug.
    Second of all--I see my red light is on, so I'm going to do 
it fast. Treatment, I can go on and on and on. We cannot 
imprison our way out of this situation, even though I'm a 
prosecutor and I do put people in prison for a living, and I'm 
proud of it, we can't imprison our way out of this problem. We 
need more treatment. It's been mentioned $750,000 in treatment 
in the last legislative session. To treat 1,000 addicts, which 
would just be a tip of the iceberg, would be $6\1/2\ million, 
and that would be a very significant investment. If you put 
those same 1,000 people in prison, it would be $22 million, 
over three times as much.
    We need treatment money, and we need to support education 
efforts. We've heard a lot about this. There are individuals at 
this table that are working hard on education. We need to 
support that. A week doesn't go by that I'm not speaking to 
some group about methamphetamine and what I've seen as a 
prosecutor. My favorite groups are high schools. They need to 
know what can happen when you dabble in this drug, but the 
individuals at this table and other people who are working out 
there in this area can't do it alone. We need support for 
education.
    [The prepared statement of Ms. Gaertner follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.028
    
    [GRAPHIC] [TIFF OMITTED] T4891.029
    
    [GRAPHIC] [TIFF OMITTED] T4891.030
    
    Mr. Souder. Well, I thank you all for your testimony. Let 
me share a couple things first.
    The timing of this hearing is timely and very efficacious. 
So let me first say that we appreciate 5 minutes is impossible, 
even with all the questions to summarize, but we need as much 
printed material as you can get us so that the staff can pour 
through this. We are in the process of putting together a major 
meth package. We, at the request of a couple of the committee 
chairman are scrambling rapidly. Last week we had 15 Members, 
including a number of the chairman, together to try to figure 
out how many Judiciary appropriations we can line up to move 
the number of bills possibly starting before the August break 
and certainly moving early this fall would make some bills move 
through here in the next week or two. We're trying to pool all 
the bills that exist in Congress, look at the ones where we can 
get quick agreement. Then where we go past that--for example, 
there's one environmental cleanup bill that's already cleared 
committee. We're trying to get that to the floor, trying to 
decide if we will do it in a week or have a week and then move 
bills individually.
    So any information you could get, it would be helpful to 
have that Minnesota bill in the record in the next couple of 
days. I'd appreciate it, Mr. Ogden, if you can ask Director 
Tandy--clearly, part of our problem here is all the different--
there is no national meth strategy. Different subagencies have 
meth strategies that have been created. I mentioned about the 
COPS Grant. Well, the reason there are COPS Grants that are 
designated as certain people in the Appropriations Committee 
because they were frustrated that there wasn't a nationally 
organized strategy started to designate and earmark money in 
appropriations bills. Senator Rosen knows that's probably a 
common matter at State laws, too. Senator Grassly has been one 
of the first people out of the box with meth, and so we have a 
Meth Hot Spots Program with designated earmark funding within 
COPS. You can all apply for COPS Grants, but some people had it 
earmarked and with this going topsy-turvy, not necessarily 
where the greatest problems are but where somebody who was on 
the right committee or somebody came to them, that it's not 
organized, and, of course, administration, they put it back in, 
and the committee actually increased it.
    But if you could ask Director Tandy within--certainly by 
the second week in July, we will try to have--and I know at a 
hearing in Washington a week ago your international--he is 
supposed to be pulling together all the DEA task force 
information from around the country and was supposed to have 
the preliminary last week to us. Have we heard back? So we need 
that information as soon as possible.
    Mr. Ogden. Yes, sir.
    Mr. Souder. But particularly some suggestions for how we 
would do a clearinghouse. The HIDTA bill is moving through this 
week. We'll ask the HIDTA people to do the same thing, and we 
need the push that would be through the drugs arm. We also need 
the justice department through the COPS Program, we need to 
figure out on the clearinghouse where you best place the 
clearinghouse.
    The problem is that these are all different appropriations 
bills, so trying to figure out how to get a clearinghouse under 
one, each agency would like to be everything, but, in fact, the 
DEA doesn't do treatment. They do a little prevention but 
they're not the main prevention agencies, and we've got to 
figure out from the clearinghouse where our clearinghouse 
should be. That ought to be part of our meth house because 
you're right, everybody is reinventing the trail to kind of 
intermittently slopping--Portland, in this case the reporter 
Steve Suo is doing the best research job in the country, and 
you want to learn about meth, look on their home page and get 
their information. He's going to win a Pulitzer Prize or 
something for his research, and we cycle into him, other guys 
have cycled information, so he's become kind of a repository, 
but it's backward when a newspaper is the primary source of 
information right now on information on meth, that also each 
Partnership for a Drug-Free America has told each Congressman, 
told me that they'll provide each Congressman with any ads they 
want for their district for free, that they have the best ad 
agency in the country that cuts these ads. They don't 
necessarily appeal to me. I asked some of my staff that's 
younger, what's the point of this ad? They said, well, that was 
gross. It just looked stupid to me, but the goal is to try to 
reach the target market and younger people, not me, at least at 
this point I haven't been too tempted. Sometimes politics makes 
you look for avenues, but not meth. So we get those, because we 
can get those up on the air. We're trying to figure out how to 
get our National Ad Campaign to move a little bit more toward 
meth. So we'll certainly address the clearinghouse question. We 
need the meth bill in, and you can be assured that no national 
bill will preempt State and local tougher laws. We'll guarantee 
that.
    I want to give you a warning. Our committee held a hearing 
in Arkansas, had Oklahoma people over. Oklahoma has been--it's 
been misleading about the success in Oklahoma. They're touting 
it a lot, but it merely finds other routes, and, for example, 
the mom-and-pop person uses--I know Congressman Newton has been 
a leader in this. Again, the pharmacy is going to go to the 
Internet, and that's going to be tougher to find, because you 
can get the amount of dosages over the Internet, just like a 
grocery store, and that what we have to do is get it out at the 
wholesale level and the border level because we can watch it 
there, who is buying what, where is it moving, if it's not the 
Canadian border it's coming from the south border, but you can 
get the Internet over Canada and Mexico, and what we're doing 
is we're making it harder to find to some degree and find it 
less short term.
    In Arkansas--I want to make sure I get this question in. 
All the law enforcement people, Sheriff Amazi, Sheriff 
Gerhardt, Lieutenant Hoffman, do you report your lab figures to 
EPIC?
    Ms. Amazi. Yes.
    Mr. Gerhardt. Yes.
    Mr. Hoffman. Yes.
    Mr. Souder. Because part of that--do you know, Mr. Ogden, 
does anybody keep data like what Ms. Gaertner was saying in the 
child enforcement and--I'm trying to match how--because this is 
certainly the worst big city that we've heard yet, a little in 
Detroit, a little in New Orleans, Portland is getting it some 
in the city but mostly outside the city, but I'm trying to 
match why their lab total is so low if three of the rural 
counties are, in fact, reporting EPIC. It's not even--in one 
area of Louisiana alone that--well, in Arkansas they're 
reporting 700, but they're over 2,000.
    Mr. Ogden. Right.
    Mr. Souder. What's the disparity?
    Mr. Ogden. As I understand it, there is a disparity in the 
numbers and DEA personally tracks the amount of times we 
respond for toxic cleanup, so that's one group of numbers, and 
those numbers are maintained by DEA. We have to keep track of 
the amount of money that we spend. So every time we contact the 
contractor to respond to a scene and cleanup, we have firm 
numbers with regard to that issue. But, then, sometimes there 
are labs that are identified and DEA is not involved in the 
cleanup. Maybe it's glassware or precursor chemicals that are 
seized, and those occurrences are reported directly by the 
local law enforcement agencies to EPIC without DEA being in the 
middle necessarily. That's why there's a difference in the 
numbers.
    Mr. Souder. But this is an EPIC number, the total was 192 
in 2004?
    Mr. Ogden. For.
    Mr. Souder. On page 3, you have chemical, glass, equipment, 
dumpsites, labs, 192. Is that an EPIC number for Minnesota? 
Yeah, it looks like it is.
    Mr. Ogden. Let me ask Dennis.
    Mr. Wischern. I believe it is, sir. As Mr. Ogden stated the 
EPIC system, that you're aware, is a voluntary system, and 
that's one of the challenges we face.
    Mr. Souder. Could you do a double check for me?
    Because we're having a terrible time matching up numbers in 
reporting, but each of these three counties said they report 
through. Could you check for our records because it would just 
be a matter of calling EPIC. If you need us to call EPIC, we 
will. Could you report back through and see what figures they 
have for their counties and try to match that up and also see 
what you're seeing for Ramsey County?
    Ms. Gaertner, in Ramsey County do you sense that most of 
those are mom-and-pop labs or are you getting--when we say it's 
70/30 or 80/20, the stuff that comes through the Mexican groups 
is more potent and cheaper and more addictive even than mom-
and-pop, is that what you're seeing mostly in Ramsey? Because 
that wouldn't show up in the lab reports.
    Ms. Gaertner. Mr. Chair, the last year that I have figures 
for is 2003, and we had 17 meth labs busted, half of which were 
in St. Paul and the other half in the suburbs. When you 
consider only 17 meth labs were busted and we had 300 drug 
charges that same year, obviously, it's not all coming from the 
mom-and-pop labs. My sense is that it is very much dominated by 
the super labs.
    Mr. Souder. Because that's part of what we're trying to 
figure out is we have a rural problem and a suburban/urban 
problem, but even in the rural areas we're starting to see the 
super lab type things. It's a fascinating challenge because my 
district reported, just in my congressional district it's over 
400 mini labs. I have some counties that have reported more 
into EPIC than you have statewide, and that's what I was trying 
to figure out how to match up. Like I say we have towns--in one 
town in Arkansas 90 percent are addicted, in the town.
    Ms. Rosen. Thank you, Mr. Chair. I just wanted to say that 
perhaps you have three counties here that are doing the proper 
thing, but there are so many counties in Minnesota that the 
EPIC regulations paperwork is too much. You only have maybe a 
sheriff, maybe an assistant sheriff, and they're tired when 80 
percent of their resources are going to busting labs. They know 
of labs out there they can't even get to it, and, then, on top 
of filling out these forms for EPIC, it's just a little bit too 
much. So I'm not even sure if the reporting, that information 
from EPIC is accurate on that.
    Mr. Souder. I'm sure it isn't. The question is is it 
disproportionately inaccurate. In other words, we heard of the 
same thing in Arkansas where they're reporting 700, but we've 
identified just in a couple of districts 2,100, and in our 
State we're reporting, I think, 1,100, but we've identified 
3,000 that the police have taken down, and the question is is 
one State disproportionate? We know there's under reporting, 
but if some of you are reporting then we need proportionality, 
and we're also trying to figure out what's the difference in 
the intensity of mom-and-pop labs versus the bigger systems.
    I want to make sure that--let's see if there was another--
this--we first started to deal with child endangerment in 
California about 6 years ago when they passed the laws. Did you 
put a child endangerment provision in your State law that you 
could be--if you had a mom-and-pop lab and there were children 
present there would be penalties for child endangerment?
    Ms. Rosen. Mr. Chair, yes, sir. It's a very extensive child 
endangerment--any methamphetamine paraphernalia is in the 
vicinity, is in an apartment building, it's quite extensive, 
and Minnesota Meth Lab developed this bill, which includes 
Department of Health, the BCA, the Department of Human 
Services, the Attorney General's Office, the county attorneys, 
the retailers, the sheriffs, the chiefs. It's probably 
everybody that is dealing with meth is at a table, at one table 
at a time. So those provisions in the bill were developed by 
the Attorney General's Office.
    Mr. Souder. Thank you. Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. Let me, first of 
all, thank Senator Rosen because in many respects you have been 
a mentor to me on this issue, and I felt kind of foolish when I 
went to some of the small towns in my district and really got 
my eyes opened in terms of the problems that were out there, 
and that was several years ago.
    I want to ask you, though, not just as a State senator, but 
as a mother, and your sheriffs here talking about an after 
school program, tell me more about that and how it's working 
and how we can perhaps--see, I believe success leads to 
success, and if you have some programs you're working, one of 
the functions we can have in Federal Government is to encourage 
more people to follow that model.
    Can you tell us a little more about the after school 
program and what's going on in Fairmont, MN?
    Ms. Rosen. Thank you, Mr. Chair and Congressman Gutknecht. 
I can probably defer to the sheriff, but I can say as a mother 
and as somebody that's been working on meth, that this 
education portion of this insidious problem is very key, 
especially in the schools, because this drug is not hitting the 
children that perhaps did--were smoking a little cigarette, did 
some drinking and then pot and then meth. It's hitting our kids 
that are the straight A students or the athletes and they 
happen to go to a party and make a couple mistakes and they try 
meth, and pretty soon they always want that same high.
    So I am gearing up--in fact, we are having a Minnesota Meth 
Task Force meeting this afternoon to look at the issues that we 
need to deal with next year, and this will be one of the top 
ones, is how are we going to get to our children. Because of 
this Mexican meth that's coming in, they're the most 
vulnerable, and we absolutely have do get education programs 
into them and tell them they can't make that one--they can't 
just try pot--or meth just once, like they tried pot. There is 
no room for error or experimentation in this drug. So the after 
school program is one more tool that we have to make sure that 
we can reach these kids and give them an alternative, and if I 
can defer to the fine sheriff.
    Mr. Gerhardt. Yes. In all fairness Senator Rosen, while 
she's been up here in the legislature, our wheels have still 
been turning back in Martin County, and one of my goals in 
coming up here is to invite her to the next meeting on July 
28th with regard to this program, so--this program is unusual. 
We don't think there's anyone--any program like it, certainly 
in the State of Minnesota. I don't know about across the 
country. It basically covers 3 to 8 p.m. A lot of these 
students don't get their homework done. A lot of these students 
don't get fed. A lot of these students don't have recreation 
time and, quite frankly, the majority of these students need 
vocational skills, and that's why the doctoral candidate 
portion that's involved in this program, we think, is highly 
critical.
    If you could think of it in terms of students from ages 10 
to 18, which is what this program that we're looking at 
hopefully starting this fall, targeting that group, it takes 
them off the street during those critical hours. We feel 
there's going to be a reduction in teen pregnancy. Obviously, 
less chance for them to get involved. Hopefully, a lower call 
for service rate for local law enforcement, all of these things 
because this program will be coming into play, and, like I 
said, two-thirds--we're two-thirds of the way there, and we 
want to drive this thing home and be ready to operate yet this 
fall.
    So we're working on the funding piece right now, and then, 
of course, we got family therapy, we got individual therapy, 
and my experience has been not only working through kinship and 
mentoring, which I happen to be a mentor myself, but also 
working on funding grants.
    These kids are hungry, constantly. They just don't get fed, 
and it's very hard to learn. You know, we've got our Federal 
programs for breakfast and for the hot meals at lunch and all 
those other things, and they're just starved, they really, 
really are starving.
    Mr. Gutknecht. Sheriff Amazi, I want to congratulate you 
and thank you as well, because you have sort of been a mentor 
to me as well, in fact, on a couple of things.
    First of all, I think you were the first one to alert me of 
the problem of Mexican drugs coming into this country, and it 
strikes me--I think it was like 2 weeks after you had 
communicated with us about this problem that there were, I 
think, four individuals that were arrested traveling north on 
Interstate 35 with a trunk load of meth. I mean, the irony 
could not have been more stark.
    Could you also--and I just have a limited amount of time 
left, could you relate to the rest of the members of the 
committee what happened where one of the pharmacies in Austin 
actually tipped off some people, whether it was you or I'm not 
sure how that--you tell the story of what happened where 
literally a retailer let you know that the people were out 
there trying to buy an awful lot of this particular drug.
    Ms. Amazi. And that actually happens frequently, 
Congressman Gutknecht. It was Target Stores. They've got an 
excellent security system, and they did alert law enforcement, 
and they were able to zoom in on license plates, vehicle 
description, suspect information and did relate that to law 
enforcement that, hey, these folks bought hundreds of pills of 
pseudoephedrine and some of the photo batteries, and this is 
the vehicle that they're driving in. I mean, it was absolutely 
excellent information. We couldn't have gotten better from law 
enforcement, much less a retailer, but we were able to stop 
that meth lab before it produced.
    So I think that's almost always key, stopping these things 
before they're being made, which is why we sought the 
legislation to control pseudoephedrine products. So, I mean, 
this continues and it is--it does go on every day, that we do 
get calls from retailers saying, hey, heads up, and now we've 
got one more tool in our basket that allows us to do that.
    Mr. Gutknecht. I think the message there, and my time has 
expired, is that everybody can be part of the solution.
    Ms. Amazi. Yes.
    Mr. Gutknecht. This is not--it's not the Federal Government 
has to do this or nothing is going to happen. I think it's got 
to be local, it's got to be schools, it's got to be parents, 
it's got to be people in the churches and communities, and it's 
got to be retailers, but I think you have--there's some great 
examples of things that are happening. Unfortunately, we don't 
have enough time to tell all the stories, but I think the story 
of the Target Store, the after school programs and some of the 
other things that are happening in southern Minnesota are 
things that I think we need to see replicated and talked about 
around the rest of the country.
    Mr. Souder. Thanks, and let me reiterate that to the degree 
you can get printed materials to us so we can assemble them and 
look at them in the next 7 days will be very helpful, any of 
these examples. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair. I appreciate what 
you're saying about trying to get the numbers so that when 
you're making the case for us on the floor, which you will do 
eloquently, that we don't have confusion not only in the press 
about what's going on but confusion among legislators about how 
serious this problem is, so I think you're trying to get to the 
bottom of the numbers, as what you're trying to do is critical.
    I also think we need to start pulling the costs together. 
Just--I lost track of it just sitting here, just the number of 
meth cleanups, the number of months to years that people have 
to be in treatment. All these costs aren't realized in totality 
because they're all in different segments, different units of 
Government, local, State, county and Federal, and so we need to 
figure out, I think, also a way to really get our arms around 
how much this is costing us, because I think it will make 
others in Congress more aware of what is happening, other 
people as State legislators around this country more aware of 
what's going on, because this is porous, this is a balloon, you 
just move it around, whether it's mom-and-pop to super lab or 
whatever, and I think you did such a wonderful job of laying 
that out, but I think the point that the sheriffs made that 
there are--the amount of paperwork that they're seeing with the 
cutbacks that they're seeing at local, State and Federal 
levels, Gang Task Force Funding being cut here in Ramsey 
County. You can see, Mr. Chair, we're in great need of looking 
to see what's moving forward.
    So I think I would like to offer--I serve on the education 
and work force committee, along with Congressman Kline, to do 
what we can to talk to after school people and find out what's 
happening with their cuts. I know Boys and Girls Clubs here in 
the Twin Cities are struggling, and they run the 3 to 8 p.m. 
programs that the sheriff here is talking about. I don't think 
we have a good sense of what is going on in our communities as 
some of these priority paradigm shifts have taken place and how 
they've really affected our children because our children 
aren't vocally coming up to us saying this is affecting me, and 
we know that there are parents who are either working too many 
hours to do that or, unfortunately, they have a parent who just 
doesn't care, maybe because they have a drug problem.
    So I'd like to offer my support on that, but I would like, 
if I could, to take just a second.
    I serve on the International Relations Committee, and we've 
had hearings on drug trafficking in Afghanistan and what's 
going on in Columbia, but we really haven't talked about meth 
in the International Relations Committee, and hearing what I am 
about these Mexican National drug people, people coming in that 
are legal aliens, I'm assuming, as well as some that are 
illegal that are being deported, do you know--and I ask this 
question to my county attorney and to the DEA, are you folks 
talking to each other about what's going on in the impact of 
the cuts to the Gang--COPS program, as well as what's the cuts 
to the Gang Force Task Programs?
    Mr. Ogden. Yes, ma'am. We in DEA have a very long history 
of working collaboratively with local and State law enforcement 
agencies and one of the things the DEA does best is operate 
task force operations throughout the country, and in this 
particular State we have about a dozen task force officers who 
are local and State officers assigned to our office in 
Minneapolis, and we conduct almost all of our investigations 
with our local counterparts here, and we work hand in hand, 24 
hours a day, 7 days a week with the people who know their 
backyard the best, and so DEA is not operating in a vacuum, and 
then we also, because we have offices in 60 countries 
throughout the world, we work with our counterparts in all the 
countries where we're represented to try to prevent drugs from 
entering the United States and to extradite criminals in 
foreign countries who are bringing drugs into the country.
    Ms. McCollum. Mr. Chair, I don't mean to be rude, but my 
time is running out and my question is, are we giving you the 
tools that you need, and maybe you don't want to bite the hand 
that feeds you because we're sitting up here in the Federal 
Government, but there are decisions and priorities being made. 
We have collectively an opportunity to change or redirect that. 
It sounds to me like we're putting drops of water into trying 
to fill up a bucket as large as an ocean.
    Mr. Ogden. Right. Certainly any law enforcement official 
could tell you that the more people we had the more money that 
we had available we could do more with it. We at DEA certainly 
welcome the opportunity to have more agents and greater funding 
so that we could do more, and we could share those additional 
resources with our partners in this struggle, you know, but we 
do the best we can with what the money that's made available to 
us.
    I would certainly welcome--you know, in a division that's 
as large as the Chicago Field Division where we cover five 
States, we only have about 300 agents and task force officers 
to cover the size of northern Midwestern States. It's really--
when you think about the amount of territory that we cover, we 
can only do so much. Obviously, we would love to have more 
agents and more intelligence analysts and, you know, greater 
funding to conduct the investigations to pay for undercover 
operations and international wire taps and so forth. So, 
obviously, we welcome any additional resources.
    Ms. McCollum. If you have time, Mr. Chair.
    Ms. Gaertner. Mr. Chair, Congresswoman McCollum, my 
impression, to be frank, from the front lines, if you will, as 
a local law enforcement person is that there hasn't been the 
emphasis on methamphetamine trafficking commensurate with its 
threat to our communities, and I guess that's all I can say, is 
that it has been a fairly recent phenomenon that we've opened 
up to just how serious meth is. The initial efforts were at the 
legislative level, the State legislative level to get out the 
pseudoephedrine sales and that kind of thing, but it is not my 
sense that this has been dealt with on a national or 
international level, as I said, commensurate with this front.
    Mr. Souder. Thank you. Congressman Kennedy.
    Mr. Kennedy. Well, thank all the panelists here for your 
great testimony. This is a very important issue. I'd like to 
ask a couple questions.
    First of all, we have been fighting for getting more Byrne 
Grants, more Hot Spots, more COPS funding, but what would be 
very helpful is to have you give us testimony as to how those 
programs have been successful. What is the success case that by 
having the drug task force in your counties, how has that 
really helped, and if any of the law enforcement folks could 
just say, here's my best sort of success case with a drug 
enforcement task force in your county, that would be greatly 
appreciated.
    Ms. Amazi. I've got a fairly recent one, thank you. It was 
a gang that came up from California. They were trafficking in 
glass methamphetamine that was being brought in from Mexico. 
They were directly bringing it up from California to Lyle, MN, 
into Austin, MN, and with the help of DEA and the U.S. 
Attorneys Office, we were able to send those two individuals to 
Federal prison for 40 years. They successfully probably 
recruited about 30 to 40 ages 13 to 25-year-olds into 
methamphetamine use, and once they got them hooked, they, in 
turn, had them go out and sell the product for them. So being 
able to shut that group down, many of those children were good 
kids that were able to be turned around and are now in college 
and doing very, very well. I have contact with their families 
repeatedly, and they're all doing very, very well, and that 
would not have happened had we not had the task force initially 
and the cooperation of the DEA with the Byrne Grant funding and 
then the DEA's assistance as well.
    Mr. Kennedy. And exactly how did the task force work in 
that? Who sort of first identified the people, who apprehended 
them, how did it all work in coordination?
    Ms. Amazi. Mower County initially identified these 
subjects, then we recruited Rochester and their gang strike 
force, and as well as the Byrne Grant money to continue the 
purchase and the investigation into this drug ring. So we were 
able to shut them down with all of that working together.
    Mr. Kennedy. Now, Lieutenant Hoffman, you spoke of the fact 
that if we apprehended someone that was going to be deported 
that they were back again. Is that because we didn't deport 
them or is that because once we deported them we had trouble 
coordinating with the Mexican government to make sure that they 
lock them up if we can't lock them up.
    Mr. Hoffman. I believe it's both. Right now it's fairly 
hard to get somebody deported, at least if we arrest somebody, 
an illegal immigrant for methamphetamine possession, if they're 
deported, we see them back in a month to 2 months. That's the 
problem that we're seeing with immigration.
    Mr. Kennedy. If they are deported.
    Mr. Hoffman. If they are deported.
    Mr. Kennedy. So we don't have maybe the proper handoff with 
the Mexican Government, that we're just not sending them there, 
but we're sending someone that we believe they should be 
apprehending as we would be if we had apprehended an American 
in America doing that.
    Mr. Hoffman. Yes.
    Mr. Kennedy. Also, you know, and I congratulate Senator 
Rosen for your great work here in the legislature. You know, 
one of the things we were working on is these Hot Spots funding 
to make sure that--we never like to lose to Wisconsin or Iowa 
in football or anything else, or Hot Spots funding, and we're 
leading that effort with the delegation. Tell us how exactly 
that's going to really be beneficial here in Minnesota, the 
success that we had in terms of getting Hot Spots dollars here 
and how they'll be used.
    Ms. Rosen. Thank you, Mr. Chair, and, Representative 
Kennedy, and I would like to say that this piece of legislation 
was bipartisan work. It could not have passed at the level it 
did without bipartisan work.
    The Hot Spots money has been a thorn in my side because I 
do see what Iowa gets, $4 million. I do see what Wisconsin 
gets. For a couple counties they get over a million, and for--
actually, it's probably $2 million, and I probably should get 
you those figures. I could do that, and we received, I think, 
$200,000 last year.
    About a year and a half ago Senator Coleman and I had a 
field hearing in Fergus Falls and one in St. Paul, and one of 
the DEA special drug agents came in and testified that they are 
sharing equipment, face masks when they go out.
    Now, I'm not sure what's happening this year, but I don't 
think the funding is there for equipment, for training, and I'm 
very, very concerned that we aren't getting the level of 
funding or the needs that we need. Of course, with this 
legislation it's going to take a bite out of the homegrown 
labs, but we still need to address the importation, and there 
is some funding in this legislation for 10 meth agents, BCA 
agents that will be working specifically for meth. But, still, 
we have a long ways to go, and I'm very concerned about what 
it's doing to our employers. They're asking for help. As you 
can tell, their productivity and their healthcare costs and 
their retention, it's going down greatly, and they are asking 
for help so they can train their employees to stop and stay 
away from meth.
    Mr. Kennedy. Thank you. Well, my time has expired. Thanks 
all again for your testimony.
    Mr. Souder. I want to ask a couple quick questions for 
record.
    How many of you here, we've heard some references, could 
you hold up your hand and I'll identify if you've had a Byrne 
Grant funding related to any narcotics that worked in your 
area?
    Mr. Hoffman. Have or had?
    Mr. Souder. Have currently, let's start that, so both 
Sheriffs, and, Lieutenant Hoffman, you've had but you don't 
currently I take it?
    Mr. Hoffman. Correct.
    Mr. Souder. What about, has there been any meth Hot Spot 
money in Minnesota? You said there was $200,000, Senator Rosen?
    Ms. Rosen. Mr. Chair, yes, there is, but it's in isolated 
places. I believe it was Brainerd that received some. So it's 
very, very little that's been going on.
    Mr. Souder. Any activity with OCDETF, Organized--well, I'll 
stick with OCDETF.
    Mr. Ogden. Organized Crime Drug Enforcement Task Force 
Funding.
    Mr. Souder. Now, that's under FBI?
    Mr. Ogden. That's under the Department of Justice, and we 
spend a large amount of money on OCDETF investigations in DEA, 
and we are starting to have our methamphetamine, major 
methamphetamine investigations become OCDETF approved so that 
we can tap into OCDETF money.
    So to answer your question is DEA's meth investigations are 
starting to use OCDETF funding.
    Mr. Souder. Have you done any of those in Minnesota?
    Mr. Ogden. Not that I'm aware of. I don't know for sure. 
Yes. Tom is in charge of Minnesota, and he's said, yes, we've 
used OCDETF money here.
    The other thing that we're doing is we're using this Mobile 
Enforcement Team, the MET team that you may have heard about is 
going to start focusing on conducting methamphetamine 
investigations.
    In preparing for today, I learned that we did only one meth 
deployment in Minnesota in the past, and I can actually do 
something about that and try to have the MET team start working 
in Minnesota out of Chicago and have them start working the 
more significant methamphetamine investigations.
    Mr. Souder. And, for the record, I know all three of your 
agents behind you held up their hands when we did the oath, but 
the gentleman on my right, would you state your name for the 
record, because you were actually quoted, and the stenographer 
got a couple comments from you earlier.
    Mr. Wischern. Yes, sir. My name is Dennis Wischern, ma'am.
    Mr. Ogden. Dennis Wischern is the Assistant Special Agent 
in Charge in Indiana, and the other gentleman is Thomas Kelly, 
and he's the Assistant Special Agent in Charge of Minneapolis, 
and he handles Minnesota and North Dakota.
    Mr. Souder. Senator Rosen, were you going to say something?
    Ms. Rosen. Mr. Chair, I was just going to mention that I 
could also provide to you the costs that Commissioner Campion 
has, costs to pass this bill as far as what it's costing the 
State of Minnesota for incarceration. We do have those figures.
    Mr. Souder. Can you provide us for how much OCDETF money 
has actually been spent in Minnesota?
    Mr. Ogden. Yes, sir. I don't have that immediately 
available, but I'll get it for you.
    Mr. Souder. Has anybody--maybe if we can have--if anybody 
has a more general question. On the precursor chemicals, we've 
heard a lot about pseudoephedrine. Where are the bulk of the 
precursor chemicals coming from in Minnesota, anhydrous 
ammonia, picking them up, try to address that or what do you 
feel?
    Ms. Rosen. Mr. Chair, of course, the pseudoephedrine is 
coming from mainly the stores, and we've taken care of that. Of 
course, we have the Canadian issue that we're dealing with. But 
as far as the other ingredients that is anhydrous ammonia, and 
there is no legislation in--or no ruling on this legislation to 
handle that. There is a penalty for anhydrous ammonia tampering 
and theft, but nothing as far as restrictions, blocks.
    Mr. Souder. Any fencing around big units?
    Ms. Rosen. Mr. Chair, no, there is not, and we have not 
seen red phosphorous coming in yet. I do know that in Iowa they 
are starting to see some because they have been dealing with 
anhydrous ammonia, so you handle one issue and they just come 
in with the other, red phosphorous, and of course, there's some 
other types of cooks that are being developed right now. But 
the bill does handle any ingredient for the attempt to 
manufacture. There's a penalty on that.
    Mr. Souder. This off the topic, but I want to take this 
opportunity to ask Mr. Ogden a similar question.
    Mr. Ogden. Yes.
    Mr. Souder. Last Sunday Congressman Kirk made the statement 
that Afghan heroin has suddenly hit Chicago. Do you think 
that's an anomaly, is it standard, or do you see other areas in 
the Midwest where we're seeing Afghan heroin for the first 
time?
    Mr. Ogden. Congressman Kirk is very concerned, as you know, 
about the large harvest of opium in Afghanistan.
    Mr. Souder. Four times the world.
    Mr. Ogden. We have not seen a large increase in the amount 
of heroin that's coming from southwest Asia, but that doesn't 
mean that it won't occur in the near future, and most of the 
heroin that's coming into the Chicago area is coming through 
Mexico from South America.
    Mr. Souder. I want to finish with this if anybody else has 
a question. I know we have a second panel and I'm trying to get 
out to vote, that the DEA has a major plus up in this 
appropriations bill, and one of the things we are dealing with 
in the legislation is try to address some of the 
international--there's only five--there is, I think, it's nine 
manufacturers of pseudoephedrine in the world, five of them in 
India, two in China, one in Europe and one in Mexico, and we 
have to go after those major manufacturers. We can take down 
every little grocery store in the world, but the bottom line is 
that we have all these nine companies in the entire world, and 
we need to get a handle on this and we need to figure out--we 
also have a separate border task force trying to generate the 
unbelievable complexity of the immigration work force border 
control type question, but we are trying to address those type 
of things. Some of this has to have an international component 
because once it gets past the nine and starts to fan out and go 
into every little town and big city and apartment complex, it 
is overwhelming.
    I know one other question I wanted to ask particularly in 
Minnesota, have you seen this hit any of the Native American 
populations, and, also, we mostly are south and center here, I 
assume you mentioned Brainerd earlier, it's similar in northern 
Minnesota?
    Ms. Rosen. Thank you, Mr. Chair. Yes, it has just hammered 
our Native American population, and it's of great concern, and 
I mentioned the 13, 14-year old girls in Lower Sioux, that's an 
Indian reservation over on the west side here, and meth is 
becoming the new date rape drug, and the people that are 
working with meth there, there is so much quest to come in and 
educate the Native Americans. We don't have the resources. 
People want the information, but they seem to be completely 
susceptible to this drug, and they are following--they are 
just--it's devastating in that community. And, like I said, 
before it is reaching into the African American community, 
which is truly an anomaly, and that's of great concern.
    Mr. Souder. Well, thanks. I really appreciate it. Does 
anybody else have any questions?
    Ms. McCollum. Mr. Chair, I'd like to mention before the 
second panel comes up, Minnesota Public Radio did a wonderful 
in-depth story on the mom-and-pop manufacturing, which answers 
some of your questions, and I'll contact them and get that 
entered into the record.
    Mr. Souder. Thank you. The testimony on St. Paul is really 
scary. Congressman Terry is saying similar things in Omaha, but 
we have not seen this hit the major urban areas, and, quite 
frankly, that may be what it takes to really get attention.
    Ms. Gaertner. Can I just briefly respond?
    Mr. Souder. The Child Protection Agency is just phenomenal.
    Ms. Gaertner. Mr. Chair, members of the committee, I'm very 
involved in the National District Attorneys Association, and I 
have never felt like my urban experience is unusual. It is in 
my anecdotal way a concern of every county attorney and 
district attorney in every major jurisdiction across this 
country. So the fact that we've put together the data perhaps 
is maybe why you're hearing this, I don't know what other large 
jurisdictions have, but I'm absolutely convinced that Ramsey is 
not unique in this respect.
    Mr. Souder. Thank you. Thank you all for coming, and we 
appreciate any repertoires you'd get to us as fast as possible.
    Will the second panel come forward? The second panel 
includes Commissioner Michael Campion, Minnesota Department of 
Public Safety; Mr. Bob Bushman, senior special agent, Minnesota 
Bureau of Criminal Apprehension, president of Minnesota State 
Association of Narcotics Investigators, and president of the 
Minnesota Police and Peace Officers' Association; Mr. Dennis 
Miller, drug court coordinator, Hennepin County; Ms. Kirsten 
Lindbloom, social program specialist, Parenting Resource 
Center, coordinator Mower County Chemical Health Coalition; Mr. 
Buzz Anderson, president of the Minnesota Retailers 
Association.
    Now that you're all seated, if you can stand and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    My understanding was Mr. Campion had a problem, but I want 
to make sure I called his name and make sure he wasn't here. So 
we'll start with Mr. Bushman.

  STATEMENTS OF BOB BUSHMAN, SPECIAL SENIOR AGENT, MINNESOTA 
BUREAU OF CRIMINAL APPREHENSION, AND PRESIDENT, MINNESOTA STATE 
ASSOCIATION OF NARCOTIC INVESTIGATORS; AND PRESIDENT, MINNESOTA 
  POLICE AND PEACE OFFICERS ASSOCIATION, ACCOMPANIED BY GAIL 
 BAEZ, PROSECUTING ATTORNEY, MINNEAPOLIS; DENNIS MILLER, DRUG 
  COURT COORDINATOR, HENNEPIN COUNTY DEPARTMENT OF COMMUNITY 
   CORRECTIONS; KIRSTEN LINDBLOOM, COORDINATOR, MOWER COUNTY 
   CHEMICAL HEALTH COALITION; AND BUZZ ANDERSON, PRESIDENT, 
                MINNESOTA RETAILERS ASSOCIATION

                    STATEMENT OF BOB BUSHMAN

    Mr. Bushman. Thank you, Chairman Souder, and distinguished 
panel.
    I work for Mr. Campion, and I'll just let you know that his 
flight was delayed coming back from Louisville this morning and 
won't be back until this afternoon. He does send his regrets 
and apologies, wishes that he could be here.
    I worked narcotics for 23 years, been a State agent, I've 
also spent many years assigned to the DEA task force, and in 
that time I've traveled extensively throughout Minnesota doing 
investigations and also around the United States, and I can 
tell you during that 23 years I've seen a lot of changes in 
drug trafficking. I remember back in the late 1980's and early 
1990's when the crack epidemic hit. We thought we'd seen the 
worst of the worst, and I can tell you now in 2005, that with 
the way meth has taken off, we haven't, and I'm wondering how 
much worse this is going to get.
    The rural areas have for many years been protected from a 
lot of the drug problems we've had, and that's not true with 
meth, and I don't want to go back and plow old ground we've 
heard testimony about, but having grown up in rural area of 
Minnesota, having family there, having seen what's happened, 
it's been just devastating.
    The metropolitan areas always have had and always will have 
narcotics investigators. They'll have people assigned to work 
drugs. That's hasn't been true and won't always hold true in 
the rural areas. When the resources get cut, they're the first 
people to feel the brunt of it.
    Congressman Kennedy was asking what a difference the Byrne 
Grants have made. Before we started getting Byrne Grant money 
back in the 1980's, we didn't have any drug task forces in any 
of the rural areas of Minnesota. All of the drug investigators 
came from the large metropolitan areas, the large counties, DEA 
and the State.
    With the event of the Byrne Grant money, today I believe we 
have 22 or 23 funded task forces throughout the State, and that 
really gives the local jurisdictions, the local areas, the 
rural areas some control and some response to the drug effort.
    With the danger of losing Federal funds, the Byrne Grant, 
the HIDTA money, the COPS grants throughout the country, the 
rural areas are going to be the ones that are going to take the 
biggest brunt of that, and I know that you've heard testimony 
about that, but I can't underscore really, you know, how 
valuable that Federal funding is when it comes to rural America 
and their response to be able to handle the problems that they 
see, particularly with methamphetamine.
    Talking about treatment programs, I think, too, we all 
realize that we can't arrest our way out of the meth problem or 
any drug problem. As Lieutenant Hoffman said before, it really 
is a multifaceted response. You need education, you need 
treatment, you need law enforcement, and they need to work 
together.
    Treatment for meth is again, a different animal. There are 
very few programs that successfully treat people with meth 
addictions. As you've heard, detoxification of a person that's 
been using meth for a long time takes more than 28 days. It 
takes several months.
    Similarly, sometimes I think people tend to go overboard on 
treatment. I know one particular person I ran into a while back 
has been through treatment 16 times, and that cost has been 
borne not by that person, it's been borne by funds coming from 
different agencies and different programs that are funded with 
tax dollars. So we have to strike a balance between the need to 
treat and the need to incarcerate.
    I believe when it comes to methamphetamine there are people 
out there that are not treatable. They have been doing so much 
meth for so long, they have done so much damage to themselves, 
they've done so much damage to their family, they're not 
treatable. They don't have the physical or the mental 
capabilities to follow through, and they've ruined their 
support system, and I think when you talk to people in 
treatment they'll tell you that having a support system is a 
very, very important part of being successful with your 
treatment. If they've turned away, they've stolen, they've 
harmed people close to them, the ones that they're going to 
turn to, they're going to need, aren't there for them, and I 
don't know how you replace that. You can treat them, teach them 
what's right and what's wrong, but you can't replace 
relationships, you can't replace the things that they really 
need to follow through with the treatment.
    You've heard about the Mexican meth problem. In the last 3 
years of my career, over half the people that I have arrested 
have been non-English speaking right here in Minnesota, most of 
them illegal immigrants.
    In many cases we've prosecuted or deported those people. 
Sometimes between the time they're arrested and they're 
prosecuted they get deported and they come back with another 
set of identification using a different name, and that happens 
all the time, not just in the large cities, it's in the rural 
areas. We have a very, very large transient population of 
illegal immigrants living in greater Minnesota and, 
unfortunately, because of the poor economic conditions in 
Mexico, drug dealing is easy money, and that's what they use to 
support their families.
    I've heard that one of the second largest parts of the 
Mexican economy is the amount of American money that comes down 
there, and a lot of it from Minnesota is coming from drug 
dealing, and it's another thing that we struggle with. It puts 
a strain on the courts, it puts a strain on all the resources.
    The positives, in Minnesota we have a great working 
relationship with the U.S. Attorneys Office, with the DEA, a 
great working relationship among the local sheriffs and local 
police departments. We work together. We're teaming up to do 
what we can about methamphetamine. Child Services, the courts, 
everybody is getting involved, and they're all going to sit 
here and tell you that we realize what the problem is. What we 
need from the Federal Government, what we need from you is 
continued support with the Byrne Grant, with HIDTA, with COPS, 
with the money coming so we can make our good ideas and success 
stories work so it works for everybody. Thank you.
    [The prepared statement of Mr. Campion follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.031
    
    [GRAPHIC] [TIFF OMITTED] T4891.032
    
    [GRAPHIC] [TIFF OMITTED] T4891.033
    
    [GRAPHIC] [TIFF OMITTED] T4891.034
    
    [GRAPHIC] [TIFF OMITTED] T4891.035
    
    Mr. Souder. Thank you. Mr. Miller.

                   STATEMENT OF DENNIS MILLER

    Mr. Miller. Thank you, Mr. Chairman, other members of the 
committee.
    I appreciate being here today on behalf of the Hennepin 
County Drug Court, and I'd like to think I'm here on behalf the 
other 12 drug courts that exist here in the State of Minnesota. 
There is a drug court in each one of the districts of the 
Congress people represented here on the committee. So I think 
it's really a wonderful accomplishment that we should be 
represented in each one of those districts with at least one 
drug court.
    We are the largest drug court in the Nation. Hennepin 
County Drug Court targets all felony drug offenders. As you all 
know, most drug courts target nonviolent addicts. In 
Minneapolis, all felony drug offenders find their way into the 
Hennepin County Drug Court, 1,517 people or cases were charged 
in our drug court last year, in 2004.
    I just want to call your attention to some statistics 
regarding methamphetamine as it relates to this population. For 
the first time in 2004, the number of felony prosecutions for 
methamphetamine cases outnumbered marijuana prosecutions. In 
2004, I mentioned there were 1,517 felony drug cases in 
Hennepin County; 909 were for cocaine, 212 for methamphetamine, 
178 for marijuana, 66 for illegal use of prescription drugs, 40 
for heroin, and 112 other, and so for the first time in 2004, 
just know that methamphetamine is exceeding the number of 
felony marijuana charges.
    Methamphetamine was involved in 13.97 percent of all 
Hennepin County felony drug cases in 2004. In 2003, 
methamphetamine was involved in 11 percent, and I remember in 
2000 it was less than 3 percent. So recognize this steady and 
growing increase of the incidence of methamphetamine as it 
relates to felony drug cases in Minneapolis and in Hennepin 
County.
    It's estimated that methamphetamine is the primary drug of 
choice, underlying 20 percent of our referrals to treatment. We 
have a fine system for helping to pay for treatment services in 
Minnesota known as the Consolidated Fund, and we have chemical 
health assessors available in our court who help tease out 
whether or not there's a problem with addiction and chemical 
dependency. In 20 percent of all those assessments, 
methamphetamine is the underlying drug of choice.
    For women in drug court, however, 50 percent of them have 
as their primary drug of choice and, hence, the underlying 
reason for the treatment referral their relationship with 
methamphetamine, their involvement with the use of this 
particular drug.
    The utilization of inpatient treatment, extended care 
treatment and residential treatment is sharply increasing in 
response to this particular addiction. We have long had a 
propensity, primarily fiscal-driven propensity to use intensive 
outpatient programs in response to addiction, but with this 
particular drug more and more and more of the initial 
assessments are resulting in a residential or inpatient or 
extended care referral.
    It's also interesting that we're using detention to the 
point that was made many times earlier this morning as a 
treatment readiness strategy. Like others at the table, I was 
involved when crack cocaine hit the Twin Cities and hit 
Minnesota, and I do recall how we panicked. But I never--we 
never thought that we needed necessarily to use detention as a 
way to set the stage for intervening in the lives of cocaine 
addicts. With this drug, I cannot tell you how often I hear 
that recommendation coming from a chemical health expert that 
the patient needs to be set with a protracted period of 
incarceration. In the past it was to get their attention, and 
that could mean a variety of things, but with this particular 
drug it's just to restore that cognitive functioning, because 
treatment is all about learning and education, and in order for 
us to effectively treat methamphetamine addiction, we need to 
help restore some of the lost cognitive abilities, and this 
drug is, as you know, famous for that.
    It's also the only illegal drug that we deal with in the 
Hennepin County Court that causes mental illness, and so to 
that end we're dealing with co-occurring disorders with greater 
regularity. Many of our partners are now sharpening their 
ability to deal with mental illness and we're adding partners 
who know their way around that issue and can help us not only 
resolve the underlying addiction but the accompanying mental 
health problems.
    Just let me point out to you that we did some drug testing 
research in the Hennepin Drug Court in 1999. We do extensive 
urine testing, as does every drug court across the country. We 
took a month and during that period we determined that less 
than a half of a percent, 0.30, were positive for 
methamphetamine. This is every urine sample that comes in the 
lab. We did that again in 2004, and it was 3.67 percent, and 
increase of 1,500 percent. So we know that the incidence, the 
likelihood that criminal justice participants, drug court 
participants are involved in this drug is growing 
exponentially.
    In drug court, methamphetamine continues to be a drug 
that's used primarily by Asian, Hispanic and Caucasian clients. 
To the point that was made earlier today, young African 
Americans are using this drug. We're finding that to be more 
and more a common part of their drug history.
    We're here, I'm here today to say that I think as we think 
about addressing the problem of methamphetamine I think drug 
courts can and are helping. All of the 13 drug courts in 
Minnesota are dealing with methamphetamine addiction, with 
methamphetamine involved clients. I'm aware that there was a 
county here in Minnesota recently considering, strongly 
considering building a new jail. The consultant said as a 
frontline response you need to build a drug court. You need a 
drug court to deal with that growing drug problem in that 
jurisdiction.
    I know that there is lots of empirical research that 
supports that methamphetamine addiction and drug courts are 
good partners, that, in fact, it is a strategy that can be 
extremely helpful to this Nation and to our local communities 
in helping address the problems you related to methamphetamine.
    With that, I'd like to thank you, Mr. Chair, and other 
members of the committee. I appreciate the invitation to be 
here.
    [The prepared statement of Mr. Miller follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.036
    
    [GRAPHIC] [TIFF OMITTED] T4891.037
    
    [GRAPHIC] [TIFF OMITTED] T4891.038
    
    [GRAPHIC] [TIFF OMITTED] T4891.039
    
    [GRAPHIC] [TIFF OMITTED] T4891.040
    
    [GRAPHIC] [TIFF OMITTED] T4891.041
    
    [GRAPHIC] [TIFF OMITTED] T4891.042
    
    Mr. Souder. Thank you. Ms. Lindbloom.

                 STATEMENT OF KIRSTEN LINDBLOOM

    Ms. Lindbloom. Thank you, Mr. Chairman, and members of the 
committee.
    My name if Kirsten Lindbloom, and I am Social Program 
Specialist with Parenting Resource Center in Austin, MN, and as 
part of my work I coordinate the Mower County Chemical Health 
Coalition. We are a Drug-Free Community support program grantee 
and have been since 1998.
    After a fatal meth-related explosion in 2001, the Mower 
County Chemical Health Coalition added in its mission to 
respond quickly to community issues related to alcohol, tobacco 
and other drugs started what has been become a 5-year effort to 
fight Mower County's meth problem using multiple strategies and 
multiple sectors.
    In August 2001, the coalition formed a task force to 
respond to the issue, and that task force has developed a 
strategic plan, which includes community education, community 
media campaign and policy change. Over the years this task 
force has evolved and changed and is currently the Austin Area 
Meth Task Force, which is chaired by the city of Austin Mayor 
Bonnie Reitz.
    As a community, we've made a commitment to fight our meth 
problem by creating solutions. Our community education efforts 
have included community action meetings, our local experts 
including Terese Amazi, Sheriff Amazi, have spoken to groups, 
including our youth areas--youth groups, areas schools, as well 
as for those that are in people's homes, so our utility 
workers, our social workers to do education about the dangers 
of meth labs specifically.
    As a result, parent support groups have been formed, and 
we've recently launched a new anonymous tip line called--
uniquely called Meth Busters, actually. We've also been 
aggressive with our media campaign, a community-based media 
campaign, including newspaper columns, print media, television, 
documentaries have been created, and we just launched our 
Extreme Meth Makeover Campaign, which has been taken from--
likens to an ad that I saw coming out of Wyoming, and we've 
taken it and have expanded on that.
    In the area of meth-related policy, Austin and Mower County 
led the way. In 2002, Representative Jeff Anderson attended 
this task force meeting and as a result responded with 
Minnesota's first precursor legislation, which happened in 
2003. In 2004, Mower County followed the suit of many counties 
doing their official cleanup ordinance. In September 2004, the 
city of Austin took that bold step and became the first city to 
regulate the sale of pseudoephedrine products. Mower County 
followed shortly after and, of course, the State has followed.
    The key to these efforts has been collaboration. No one 
entity can achieve these outcomes alone. Aggressive law 
enforcement, treatment prevention efforts through community 
partners, and commitment of elected officials have and will 
continue to impact the efforts to battle meth, as well as other 
drugs impacting our communities.
    I've been asked to share about the impact of Drug-Free 
Community dollars on our communities. As I said, we're in the 
7th year of funding with that. The funding received from Drug-
Free Communities has been the financial backbone of the Mower 
County Chemical Health Coalition. Drug-free dollars primarily 
support the coordination of the coalition and its efforts. As a 
result, this hundred thousand dollar investment in our 
community leverages an additional $250,000 annually in support 
for coalition activities and initiatives. Drug-free funding 
provides consistent and stable coalition coordination and 
leadership, and as a result, access to additional funding to 
enhance and expand our coalition activities.
    As a result, ONDCP has identified four core measures, and 
it's asked us as a Drug-Free Community support program grantee 
to be able to track things like 30-day use of alcohol, tobacco, 
marijuana, which we have done and had great success in those 
areas, and I think as far as relating to our meth issues, we 
have seen some decreases in our youth use, as indicated by the 
Minnesota Survey, as that's what we have to use. So there's 
been a decrease in youth use of meth from 2001 to 2004, which 
tells me we're turning--I feel like we're turning the tide a 
little bit here, which now is not the time to stop but to move 
forward, and so I would say that we have greatly appreciated 
the support of our law enforcement. They are key in the efforts 
that are happening in Mower County, as well as our city and 
county officials. Our treatment folks have been very 
supportive, and I just want to thank you for an opportunity to 
come and talk about the prevention angle and to be able to talk 
a little bit about the program that I believe is key in this 
fight to curb the meth problem. So thank you very much.
    [The prepared statement of Ms. Lindbloom follows:]

    [GRAPHIC] [TIFF OMITTED] T4891.043
    
    [GRAPHIC] [TIFF OMITTED] T4891.044
    
    [GRAPHIC] [TIFF OMITTED] T4891.045
    
    [GRAPHIC] [TIFF OMITTED] T4891.046
    
    [GRAPHIC] [TIFF OMITTED] T4891.047
    
    [GRAPHIC] [TIFF OMITTED] T4891.048
    
    [GRAPHIC] [TIFF OMITTED] T4891.049
    
    [GRAPHIC] [TIFF OMITTED] T4891.050
    
    [GRAPHIC] [TIFF OMITTED] T4891.051
    
    [GRAPHIC] [TIFF OMITTED] T4891.052
    
    [GRAPHIC] [TIFF OMITTED] T4891.053
    
    [GRAPHIC] [TIFF OMITTED] T4891.054
    
    [GRAPHIC] [TIFF OMITTED] T4891.055
    
    [GRAPHIC] [TIFF OMITTED] T4891.056
    
    [GRAPHIC] [TIFF OMITTED] T4891.057
    
    [GRAPHIC] [TIFF OMITTED] T4891.058
    
    [GRAPHIC] [TIFF OMITTED] T4891.059
    
    Mr. Souder. Thank you. Mr. Anderson.

                   STATEMENT OF BUZZ ANDERSON

    Mr. Anderson. Thank you, Mr. Chair, and Members. My name is 
Buzz Anderson. I serve as president of the Minnesota Retailers 
Association. Thanks for the opportunity to speak to the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources. Thank you as well for seeking input from 
Minnesotans. It's a real honor to speak before this 
distinguished panel and before your very hard-working counsel 
and other staff.
    Minnesota legislators, law enforcement and local 
governments, social service agencies, nonprofits and retailers 
have all been trying to find a way to deal with this scourge. 
Pseudoephedrine-based cold products, some of which have been 
used to manufacture meth, have been offered in many venues in 
this State, and the reason for that is unlike--or not unlike 
other States, it's a very diverse State. You'll find 
pseudoephedrine-based products in convenience stores, grocery 
stores, pharmacies and other types of retail.
    Again, as I just pointed out, there's just a wide range of 
communities in this State. Some citizens have many choices when 
they attempt to purchase a cold product or an allergy product, 
while other communities have little retail activity, including 
very limited pharmacy or no pharmacy at all. In some cases the 
only place consumers can buy a cough or a cold product is in 
the one remaining store in a small community, and that tends to 
be a convenience store.
    As you mentioned, Mr. Chair, I took it upon myself when 
dealing with this legislation to go to the Internet, and I just 
Googled how do I buy Sudafed, and I got many, many hits, and I 
found out there were numerous sites which would allow me to buy 
up to 1,200 boxes at a time, and, of course, as long as I paid 
for them I could buy another 1,200 and another 1,200 and 
another 1,200, and I think that's a source that people tend to 
ignore in terms of where people are probably also getting the 
pseudoephedrine-based products.
    Consumers are really trying to buy this product everywhere, 
and they do that because it's inexpensive and it's very 
effective for treating cough, colds and allergies. You know, I 
happen to be one of those people that's allergic to everything, 
so I took Claritin-D, and my wife takes one product and my two 
boys take other products because each product fits individual 
needs, and that's why you see a vast array of them on the 
shelves.
    Anyway, because of the awareness that retailers have about 
the abuse of meth, many retailers have taken voluntary steps to 
stem this type of abuse. Many have put single active ingredient 
products behind the counter and in locked display cases. Some 
have put all products containing pseudoephedrine behind the 
pharmacy counter. Many participate in the Meth Watch Program, 
which comes about as a result of a grant through our Minnesota 
Grocers Association and Minnesota Pharmacists Association, and 
that Meth Watch Program, which comes out of the Consumer Health 
Products Association, allows for training of employees, signage 
at point of sale and so on and so forth. It's a very, very good 
program.
    In many cases, as was pointed out by one of the law 
enforcement officers, suspicious activity is reported by our 
retailers, and it has resulted in a whole number of law 
enforcement busts because the employees are trained now to look 
for what appears to be suspicious behavior. Many employees are 
told, however, not to intervene in the sale because you don't 
want to get a clerk between the sale and a methamphetamine 
potential purchaser and end user because they're paranoid and 
they're violent. The idea is to help employees understand what 
appears to be suspicious behavior and report it to law 
enforcement because they have the training to deal with it.
    The Minnesota Retailers Association, along with the 
Minnesota Pharmacists Association, the Minnesota Grocers 
Association and Lisa Cranet is here today from the Grocers, and 
the Minnesota Petroleum Marketers Association worked hard 
expressing its view during the past legislative sessions when 
the Minnesota Legislature adopted a meth bill. Our process is a 
very open process here, and we are pleased to have been brought 
into this discussion from the very, very beginning, and we 
certainly thank Senator Rosen and other legislators for that.
    The legislation that ultimately passed turned out to be 
very workable for consumers and retailers, and what we hear 
from law enforcement is they believe this will be very 
effective in stemming the tide of methamphetamine use and 
production. It has several features which I would hope the 
committee would look at seriously as you look about adopting 
Federal legislation.
    First of all, the Minnesota law has preemption to prevent a 
patchwork of laws throughout the State, and having said that, I 
would hope that your bill would have preemption so that 
companies like Target and Walgreens and Snyders and others who 
have stores all over the Nation don't have to try to abide by a 
different set of laws from county to county, State to State.
    The Minnesota law also has flexibility at the point of 
sale. Our legislature realizes how important pharmacists are 
and the role that they play in providing healthcare. Therefore, 
pseudoephedrine-based products that are restricted behind a 
pharmacy counter can be logged and sold by a pharmacist, a 
pharmacist tech or a pharmacist clerk. Pharmacists should not 
be thought of as pill counters. They play an integral role in 
health care delivery and support and not monopolize their time 
on solely dispensing what has traditionally been an over-the-
counter drug. Their expertise is very, very effective and 
important in healthcare, and it's also very expensive.
    Minnesota law also has product flexibility as well and 
makes accommodations to make certain that only caplet and 
tablet forms of pseudoephedrine are placed behind the pharmacy 
counter. Products that are in gel caps, liquid form, single-
active ingredient in pediatric form and powders are exempt, and 
we heard a lot of testimony from law enforcement as this bill 
was being drafted in Minnesota that caplet and tablet forms are 
the real source of problem. To ensure that they haven't missed 
anything, however, Minnesota took another key step, and that is 
they said that if law enforcement feels that one of the other 
products that is exempt is causing a problem, that they can 
contact the Board of Pharmacy, and the Board of Pharmacy then 
has the right to make this a restricted product in Minnesota.
    Consider, if you will, just one other option when you 
consider drafting this, and, that is, there are a lot of stores 
that have pharmacies that just don't have room to put all the 
pseudoephedrine-based cough and cold products behind the 
pharmacy counter. So they like the option of putting them in a 
locked display case where only a pharmacist, pharmacist tech 
and pharmacist clerk would have the ability to get those for a 
consumer.
    Finally, let me point out that we have a tremendous law 
enforcement community in this State. They're doing an 
unbelievable job, but I know they're overwhelmed and they're 
underfunded. I know it would be greatly appreciated if Congress 
would provide more funding for local communities, which, again, 
are really overwhelmed by this.
    Thank you for the opportunity to speak to this committee. 
I'd be glad to answer any questions.
    Mr. Souder. Thank you. I don't think anything has been more 
frustrating than trying to deal with this behind-the-counter 
question, because when we first had the Oklahoma people 
testify, I was fascinated with the law. It looked like a simple 
solution, and because it looks like a simple solution, it gets 
a political head of steam in front of it as it's moving 
through.
    Interestingly, while Oklahoma initially saw a drop, so did 
Kansas that didn't have the law, had a greater drop, partly 
because when the community responds and the community 
organizations get together and the local law enforcement get 
together and the pharmacist get together, any action pushes a--
this is an easy drug to sell as evil, unlike marijuana, which 
is much more of a battle in a community.
    Therefore, any community action makes the difference. It 
isn't whether it's with blister packs, Meth Watch is notifying 
particularly in small communities. It's not like the pharmacist 
where a girl working in the morning or a boy working in the 
evening can't figure out who is coming in to buy 
pseudoephedrine. Furthermore, larger retailers can track, you 
can see where it goes, you can see which pharmacy is selling or 
having stolen twice or three times the amount. This isn't hard, 
and why we went after these small-town grocery stores and 
pharmacies, I do not know. I grew up in a small town. They're 
closing down left and right anyway, and what we're going to do 
is wind up accelerating that rate of close down with, namely, 
trying to address meth, which may not work. With that said, 
we're past the point of being able to preempt. Too many States 
have done this. Hopefully, if we pass a Federal law, States can 
then start emulating, back up a sense. But politically this has 
got such a head of steam, maybe we can get future States to do 
some compromises and types of things you did here behind. But 
I'm as aggressive law enforcement, anti-drug guy as there is in 
Congress, and I've just never seen anything not based on fact 
move this quickly, because it seems like a simple solution, 
and, in fact, we see in the mom-and-pops that you can get more 
control of the mom-and-pops. The question is then what happens. 
That it doesn't mean it's not at too high a level, but where 
groups get active, like Ms. Lindbloom, you can see effects, and 
it's great to hear that it's dropping, and what happens is that 
we're seeing some of those drops in rural areas that are 
aggressive. What we aren't seeing is the national drop overall, 
and we're seeing it move into more heavily populated areas and 
come into different types of groups.
    Mr. Miller in the drug courts, that was really interesting 
testimony. Also, because you're moving people through, we get 
to see the hard data with it.
    Given the fact that cocaine is largely coming in through 
Hispanic groups, do you think it's the distribution networks 
that have led to the differences in the African American 
community from the other communities as to why crack and 
cocaine still seems to be in the urban areas the choice of 
drugs for African Americans, although you see some meth, as 
opposed to the others where it switched so fast?
    Mr. Miller. I do know that just in terms of affordability, 
you can buy a gram of methamphetamine for $70 over on Lake 
Street and so----
    Mr. Souder. Compared to crack what is it?
    Mr. Miller. I'd have to call on my colleague, Gail Baez. 
Gail is a prosecuting attorney in Minneapolis.
    Gail, do you know what the street value is going for a gram 
of cocaine?
    Ms. Baez. Well, we've heard it's about $20 for a hit, and, 
actually, what law enforcement has told me is that 
methamphetamine and cocaine are comparable prices, but the same 
amount of meth gives a longer high. Perhaps Mr. Bushman could 
speak on that.
    Mr. Souder. Rather than try to repeat that for the record, 
will you stand and raise your hand and be sworn?
    [Witness sworn.]
    Mr. Souder. And would you spell your last name?
    Ms. Baez. B-a-e-z.
    Mr. Souder. Mr. Bushman, did you want to add anything to 
that?
    Mr. Bushman. I'd just say that Ms. Baez is right about 
that. The price for cocaine and methamphetamine is pretty much 
similar. Cocaine, of course, is sold by the rock, and they 
repeat that activity hour after hour, day after day, and I 
think part of the difference is that there's the competition. 
You know, the people that are supplying the drugs to those 
groups, you know, they're in competition with each other and 
they want to keep their drugs flowing so they get their share 
of the money. So I think that's had a lot to do with seeing how 
different groups stick with different drugs.
    Mr. Souder. Although they both may come in Hispanic 
networks, when they hit the streets of Minneapolis and St. 
Paul, the local distribution networks are African American in 
one case and more likely to be Mexican or Asian in the other.
    Mr. Bushman. Yes, and they have their turf and they have 
their customers, and they're very protective of that, so that's 
their----
    Mr. Souder. The retail association, but it works very 
similar. I mean, it's very interesting. Mr. Gutknecht.
    Mr. Gutknecht. Well, thank you, Mr. Chairman. I just wanted 
to point out that--not that I shop for cold medicines that 
much, but I happened to be in a store the other day and already 
appearing, the market is responding with pseudo-free cold 
medications. As a matter of fact, we've had testimony from 
folks here on this committee and on others that the 
pseudoephedrine really is not even necessary anymore. The truth 
of the matter is we can provide--we can produce cold medicines 
that are every bit as effective without using it at all, and I 
think that's something else we can do at a Federal level, is 
encourage and pressure some of the pharmaceutical companies to 
begin to just write it right out of the script.
    Let me also thank you, Buzz, in what the retailers are 
doing, because I think there are an awful lot of good examples 
of doing the right thing and helping and working together to 
try and get more of this product off.
    Now, the other problem you talk about is the ability to 
literally go on line and buy large quantities of that. Do you 
have any recommendations on how we stop that?
    Mr. Anderson. Mr. Chair, Congressman Gutknecht, I actually 
do not. It's one of those illusive things that evades us in 
many, many issues, whether it's sales tax issues or drug 
issues. You know, the Internet is something that didn't exist 
even just a few years ago, and now it's very widely used by 
many, many people, and I do not know how you get a handle on 
that.
    Mr. Chair, Congress Gutknecht, if I could make one more 
comment with your permission?
    One of my members was in town on Friday and they provided 
service to retailers so that by just swiping a driver license 
on a return they can check very effectively for fraud and 
abuse. They're actually now working on technology which might 
help to also use that same system to track sales of purchases 
of pseudoephedrine product. Minnesota law requires logging if 
you buy a caplet or a tablet form. But, again, it's something 
that is probably not effective in terms of stemming the tide 
because people can buy two boxes in a large city at Snyders and 
go across the street to Target and buy two boxes and to another 
neighborhood and buy two boxes, and, yes, they log every place, 
but every previous retail store has no idea that they just 
bought two boxes somewhere else.
    And, so, if you really want to get a handle on that, and I 
know this gets into privacy issues and all of that, you have to 
have something which shows instantaneously that somebody just 
bought in these specific locations, otherwise the logging is 
very limited in terms of its use, unless you're using it to 
find information about prosecuting people for having purchased 
too much.
    Mr. Gutknecht. Well, let me just say that in the end I 
think trying to limit the ability of people to get drugs, 
whether it's heroin or cocaine or pseudoephedrine or whatever, 
is of limited success. Ultimately I think it's programs like 
Ms. Lindbloom's that really is going to start to make a 
difference, we hope, and what we're really looking for, I 
think, at Federal levels are examples of success, and if we can 
encourage kids and other folks not to get started, it saves us 
a whole lot of problems on the other end.
    So I don't have any further questions, but I want to thank 
all of you for coming to testify. I think this has been a very, 
very good hearing. Thank you.
    Mr. Souder. Congresswoman McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Chair, before we conclude and wrap up the testimony, I 
want to offer to try and let the members of this committee to 
ask Chairman Hyde for a hearing, in either full committee or 
subcommittee, to deal with the super lab problem with the 
Mexican traffickers. I know you've heard this before, because I 
always check and see what's out on your Web site, what the 
committee has been working on, and one of your committees a 
drug enforcement person from the DEA, and I quote him, says 
perhaps the greatest emerging drug threat from Mexico is the 
production of methamphetamine sale and trafficking here in the 
United States.
    So we need to look at this internationally at the same time 
as we're looking at what we're doing internally here.
    We heard of many costs, Mr. Bushman, and we're going to 
maybe try to put them together, from after school to drug court 
to locking people up. But you and I had a conversation in my 
office, and I mentioned it at the hearing that Mr. Souder had 
back in Washington that I was able to participate in, talking 
about what we don't know about methamphetamine. We don't know 
its long-term effects on children who have been exposed to it. 
We don't really know how to treat this addiction because it's 
unlike any other, and the CBC is working on it. But you and I 
talked about law enforcement officers, social service people 
coming in later on and dealing with either cleanup for social 
service or their arrest that your offices are facing.
    Could you tell me, are we any further along in identifying 
this as a hazardous substance for law enforcement, if there's 
been any progress made in the past years to either have this 
flagged out on a health record so that we take care of people 
in the future or if you're seeing increased exposure and 
starting to see the long-term risks?
    Mr. Bushman. I can answer that question in a couple of 
ways, Congressman McCollum. We know that the substances and the 
chemicals that they're using to make methamphetamine are 
hazardous, and we know just based on the training what will 
happen to ether, what can happen with paint thinner, how 
dangerous anhydrous ammonia is, and I suppose the greatest 
stride that we've made with this is we've put a lot of effort, 
a lot of time and a lot of money into training the First 
Responders about the dangers and how to protect themselves from 
the pathogens, from the chemicals, from the residuals.
    Years ago when I started my career, when we had a meth lab, 
we walked in dressed as we were and we took it apart, and it 
smelled bad. You know, we knew that. Now we understand what the 
dangers are. Unfortunately, I still think we're at the point 
where it's new enough where we don't know what the long-term 
effects can be to a person who day in and day out responds to 
meth labs.
    I am familiar with cases there our DEA agents, that our 
police officers around the country that have had problems that 
they attribute to exposure to hazardous chemicals, lung 
problems, liver problems, blood diseases. Now that we use the 
protective gear, now that we're more careful, it's going to be 
a few years before we really know if we're doing the right 
thing or what the long-term effects of this are.
    When you go back and look at the people that we arrest or 
the children that we take out of these houses, I mean, the 
damage and the problems caused by meth labs to those people, 
they're evident. Talk to the people in child protection, talk 
to the doctors, talk to the nurses that treat these people and 
see the problems these kids are having from crawling around on 
carpets or on floors that are full of residuals from producing 
methamphetamine, the acids, things like that.
    I do a lot of training for First Responders, for law 
enforcement, for medical personnel, and I show this tape that 
shows how methamphetamine is made, and the comment I always get 
is I can't believe that people would actually snort that stuff 
or shoot it up their veins when it's made with acid, it's made 
with all the chemicals.
    So the immediate effects from the abuse and the use, we 
know what they are. The long-term effects from being exposed to 
it in a more controlled situation with the protective gear over 
the lifetime or a career of an agent or First Responder, I 
don't think we've had enough time to really look at that, but 
that's something that we are checking. When our people do 
respond, they fill out a form notifying their department 
through workers' comp that I've been exposed so should 
something happen later that they can attribute to it, the 
information is there as to when they were exposed, what they 
were exposed to and what kind of chemicals they were.
    Mr. Souder. Thank you. I take it that one of the things 
that happens if you're exposed you grow a mustache?
    Mr. Bushman. It used to be a beard, but I haven't done it 
for a while, so----
    Mr. Souder. Mr. Kennedy.
    Mr. Kennedy. Well, I thank the panel for all your work, for 
your testimony here. It takes a unified effort of all parties 
and Minnesota has had some great collaboration. So I 
congratulate you all.
    I also want to mention, Mr. Bushman, you were mentioning 
the U.S. Attorney and the great work that you do with him, and 
I just want to recognize that we have with us U.S. Attorney 
Heffelfinger with us here today and thank him for--and all of 
you for your great service.
    My first question to you, Mr. Bushman, enforcement, we get 
these guys, do we get the penalties, is there too much friction 
between once we've found somebody who has done harm getting 
this poison into our communities and what we can do, and are 
the penalties stiff enough to be deterring, and we've already 
identified if we're sending them to Mexico, they're coming 
right back, so we've got to work with Mexico to make sure they 
keep them locked up. But from a penalty perspective here in 
America, what advice or thoughts do you have?
    Mr. Bushman. Well, in Minnesota, particularly, we're 
talking about, really, two systems. You know, we have the State 
laws where the majority of our drug offenders are prosecuted, 
charged and incarcerated, and then we also have the Federal 
system. But I think that we've had enough time working together 
between the systems where we really try to find the best place 
for the offender.
    U.S. Attorneys office, the Federal courts have been very 
good about helping us with the worst of the worst, and the 
other thing that I really credit them with is over the past few 
years, especially with the methamphetamine problem, we've seen 
a lot more Federal prosecutions in the rural areas where 
they're not as well equipped to deal with the investigation and 
the prosecution as some of the urban and suburban areas are.
    Federal penalties are stiffer, Federal penalties are 
longer, more consistent. When you get into the State courts, 
there's a lot more latitude for each district, for each judge 
to do more of what they believe is appropriate, and you'll find 
that there is probably a big disparity in how sentencing or how 
charging occurs in the State court system, but I really think 
that with all the task forces we have, with as much time as we 
spend with the prosecutors, we really have--given the systems 
that we have, we've been able to strike a balance to make them 
work in the most effective manner that we can right now. You'll 
talk to some cops that would like to see a lot stiffer 
penalties, but like I said, we also realize that treatment and 
education are big parts of trying to win this meth battle. As 
I've said and as the sheriffs and other people have said here, 
we're never going to arrest our way out of the drug problem. 
It's a multifaceted and comprehensive approach, and that's how 
we need to look at this. Let's look at what's working, not only 
here in Minnesota, what's working around the country, and let's 
try to build that into a model that works best for us and, 
hopefully, for everybody.
    Mr. Kennedy. Thank you.
    Mr. Miller, could you talk, how does the drug court--you 
know, we're using it differently here in Minnesota. Why is that 
better and how does it relate to what Mr. Bushman just talked 
about in terms of the Federal and the State, you know, 
different forms of applying penalties?
    Mr. Miller. Thank you, Congressman Kennedy.
    I think that when you just take away all the rhetoric, drug 
courts exist to get people into treatment sooner and keep them 
there longer. They are alternative sentencing programs, by 
design intended to serve as an alternative to an incarcerative 
response. That is no secret. They exist for that very purpose.
    I think that leveraging treatment with criminal justice 
involvement is promising. I personally think that we're on the 
right track. It is especially promising when you can cherry 
pick the people for your drug court. If you can find the right 
and perfect people to be in your drug court with the right and 
perfect treatment and right and perfect criminal justice 
leverage, you're going to get fantastic outcomes.
    We haven't had that good fortune in Minneapolis. We 
designed a drug court that was intended to have community 
impact, and so we have a broad target population, broader than 
any other target population of any other drug court across the 
globe, and so progress is incremental with this group.
    Are penalties stiff enough? I think that they are, and I 
think we would be wise to use those stiff penalties for the 
people who need them, and sometimes we miss the mark. Sometimes 
we end up not using the coercive power of the law to its 
fullest benefit. But for most of the people I see tangled up in 
this methamphetamine stuff, treatment is an effective response. 
We are--you know, I think we've come to believe, as we did when 
the crack cocaine epidemic hit, that we didn't have treatment 
that would work, we didn't have treatment that worked. The 
problem is we have treatment that's very short term, and so the 
lesson we're learning, once again, is the need to elongate 
treatment, that we need treatment. The majority of people, for 
example, indicate a minimum of 90 days, and then after that 
your outcomes get better. I like to think that it's 6 months 
minimum, and so our struggle is to find long-term treatment.
    It's no secret as well that we have cutoff treatment 
funding for the working poor. In Hennepin County we helped pay 
for treatment services for the poor for decades, but now those 
funds have dried up, and so our struggle is to get effective 
treatment available to people and long-term effective 
treatment.
    Mr. Kennedy. Thank you.
    Mr. Souder. Is your drug court, then, involuntary as well 
as voluntary?
    Mr. Miller. It is involuntary. All felony drug offenders 
are included in our drug court. The way you get out of the 
Hennepin County Drug Court is you go to prison.
    Mr. Souder. I want to encourage you, I know the temptation 
across the country is to kind of cook statistics, and because 
everybody wants a great success rate, and when you look at the 
drug courts, their success rates don't, in many cases, don't 
even approach 50 over the long term or less, but when you hear 
about treatment programs where people go through 16 times, I 
personally have never heard on the street or anywhere when a 
drug dealer who has been through 6 or 7, all of a sudden 30 
percent looks really good. By keeping straight statistics, 
people shouldn't expect miracles when we deal with people who 
have been addicts in many cases for many years.
    In drug court certainly, in real numbers to real numbers, I 
believe it has had the most success because it combines threat 
of enforcement but also gives alternatives to people, and that 
kind of combination, I think, is why it has been successful.
    Mr. Bushman, have you worked with any of the OCDETF task 
forces here in Minnesota?
    Mr. Bushman. Many times. Myself as a DEA task force agent, 
I have conducted many OCDETF investigations throughout probably 
the 15 years that I've been assigned over there. It's a tool 
that we use quite readily here. I believe it has been real 
successful. As with any other program, you always like to see 
more money when you're doing a big investigation. But it is 
something that we do use. The U.S. Attorney's Office has a 
number of OCDETF attorneys who are in charge of that program 
whom we've worked with very closely, they're all very good 
prosecutors. So it's a program that we use quite regularly 
here.
    Mr. Souder. Mr. Miller, you said that 50 percent of your 
meth cases were women, is that correct, or 50 percent of the 
people coming in the drug court going to treatment were meth 
with women, but only 20 percent with men. Why do you think that 
is true?
    Mr. Miller. What I intended to say was that of all the 
chemical health assessments we do, put them all together, the 
underlying drug of choice for all of them is 20 percent 
methamphetamine. For women, however, the underlying drug of 
choice, the underlying factor----
    Mr. Souder. Primary.
    Mr. Miller. Primary is methamphetamine.
    Mr. Souder. Why do you think that is?
    Mr. Miller. Well, I think it was touched on earlier. I 
think so many women find their way into the use of this 
substance as a weight reduction strategy. As sad as it may 
sound, a lot of the young women I'm talking to were first 
introduced to the use of methamphetamine as a way to depress 
hunger.
    It's also really readily available in bars. I mean, it's no 
secret that this drug is a drug that can be had in local pubs 
and bars. To buy crack cocaine or to buy cocaine, it's a little 
riskier proposition, but this particular drug is accessible 
through less risky avenues.
    It's also a drug that I think just has appeal to women 
because it's just not such a nasty drug. You smoke it, for the 
most part. Overwhelmingly, in our drug court most of the people 
who use it smoke it. So the route of ingestion is considered to 
be a little less nasty. I mean, you don't have to necessarily 
have a crack pipe to smoke this stuff, so--and beyond that I'm 
not sure.
    Mr. Souder. Ms. Lindbloom, do you see this as a smaller--in 
a place like Austin itself, disproportionate use?
    Ms. Lindbloom. I think we're seeing an increase in some of 
the girls, and some of the more alarming cases are--an example, 
we had a superstar, captain of the swim team, an A student, 
from a middle to upper middle class family, connected--and got 
connected with it, and, of course, within 6 months was 90 
pounds and on her death bed.
    Certainly, it's become more and more popular with the 
girls, and we're seeing it. The reason they're giving is the 
weight loss thing. Our students are saying it's a great way 
to--because it's exam time, it's a great way to keep ahead of 
the pace of pressures from school, college students as well. So 
I think the weight piece is big with our young women.
    Mr. Souder. Mr. Bushman, could you relate what we just 
heard to what kind of sales networks are different than if 
you're selling to kids for tests, girls, women at bars, that 
kind of the traditional vision of how drug networks would work, 
you wouldn't necessarily think that you'd see the same dealers?
    Mr. Bushman. You won't, but when you look at how pervasive 
the meth problem has gotten to be, like I told you before, it 
used to be if you were in a rural area, you were pretty well 
insulated from large volumes of drug sales and large numbers. 
It's not true anymore with meth. There are a lot of people in 
the rural areas that have turned to it, also. Case in point, we 
had one a couple of years ago where a guy in a rural area had a 
custom combining business, and you got to make those machines 
work at harvest time, and he turned to meth to start using it 
as a way to stay awake longer and make those machines run more. 
Well, pretty soon he developed a habit, and pretty soon he was 
selling and giving to his friends, to people that worked for 
him. Eventually he couldn't get the supply he needed. He turned 
to Mexican suppliers, and all of a sudden he's looking at going 
to Federal prison along with a whole bunch of other people 
involved in this methamphetamine deal. Very, very atypical of 
people that for years we've seen starting using drugs early in 
their life and just continuing on with it, and several stories 
like that. The women with the weight loss, you know, I've seen 
many, many of them come through the system. That's how they 
started. Before they knew it, they were hooked up. They were 
trying to lose a few pounds, and by the time it was done, 
they'd lost their family, they lost their house, lost their 
self-respect and everything else just because of the lure of 
this drug. And I said these aren't all people in the cities, 
these are people from rural America, from some of the smallest, 
poorest counties and cities that we have that have been bitten 
by this plague, and their distribution network ends up being 
the friends that they hang around with at the bowling alley, 
people they rub shoulders with in the businesses downtown, that 
they have drinks with at the Legion club. I mean, it's just 
gotten into parts of society that up until this scourge were 
pretty much safe from the crack cocaine, the heroin and the 
other drugs that we've typically dealt with over the years.
    Mr. Souder. Years ago we had one case in a rural part of my 
district where it looks like the motorcycle gangs, basically, 
got a person through pharmacy school and bought a local 
pharmacy. Have you seen any of that here?
    Mr. Bushman. Well----
    Mr. Souder. Because that would be a logical thing to do, 
would be to penetrate a different type of network.
    Mr. Bushman. It's no secret that for years the motorcycle 
gangs ran the meth trade in the United States. We just finished 
an OCDETF investigation with Mr. Heffelfinger's office and the 
Hells Angels and their source were Mexican traffickers who were 
supplying the Hells Angels and bikers with methamphetamine, and 
we just finished an OCDETF case and sent a lot of people away 
on that case, and that's just one of the trends. It went from 
them controlling to now being consumers and middlemen.
    Mr. Souder. You haven't seen anybody taking over a 
pharmacy?
    Mr. Bushman. No.
    Mr. Souder. Any other questions? Well, I thank you each for 
coming, and I encourage you, like I did on the first panel, if 
you have anything written for the record--and, Attorney 
Heffelfinger, if you have anything you'd like to submit or 
submit a statement, we'd love to have that and your experiences 
in the U.S. Attorney's Office, also any help or additional 
help--the U.S. Marshals often get lost in this, but without 
marshals to help, do that process, we lose the Federal cases, 
and, clearly, as we go to bigger networks we need to know how 
you're handling that out of the U.S. Attorney's Office.
    Mr. Heffelfinger. Chairman Souder, could I inquire?
    Has the committee inquired of the Department of Justice and 
the U.S. Attorney General to give testimony either here in 
Minnesota or elsewhere on this issue? Our lead U.S. attorney is 
a gentleman named Greg Scott out of Sacramento who represents a 
largely rural district and can comment effectively. I'm more 
than happy to provide comment on Native American issues or 
Minnesota-specific issues, if the committee wants.
    Mr. Souder. Let me quickly swear you in so we have that.
    [Witness sworn.]
    Mr. Souder. The answer is yes, the U.S. Attorneys have 
testified a number of times. Our first hearing--actually, we've 
done two at the very--this was probably 6 years ago in 
Sacramento, and we've since been back up there once because the 
super labs in California started--in fact, one hearing we had 
in southern California not that long ago, it was interesting 
because we had so many California undercover people that some 
of the drug groups came in and were taking pictures, and they, 
basically, ran them down outside of our hearing and nailed a 
couple other guys who were trying to get all the other 
undercover officers at one place.
    But we'll continue to work with U.S. Attorneys. We've met 
with them in the office several times, but we're very 
interested in the Native American groups, who historically have 
been hammered by different variations of drug and alcohol. 
Also, if there's any interrelationships up on the north border. 
It's more of a problem over in New York State, but looking at 
how organizations may move because we didn't necessarily think 
of their border there and their historic relationships. So if 
there's any information on that, too.
    Mr. Heffelfinger. Mr. Chairman, if I could, the procedure I 
have to follow is if you wish written comment from me, somebody 
from your staff will have to contact the executive office.
    Mr. Souder. We'll ask you. Do you have any good questions 
you want us to ask you if you could give it verbal?
    Mr. Heffelfinger. But being here, if I could get 1 minute 
just to supplement the record on several points that the 
members of the committee asked.
    First of all, we do not--this is not a HIDTA State, so we 
do not have the benefit of that institutionalized 
communication. However, Minnesota has a legacy of law 
enforcement cooperation that covers all levels of law 
enforcement, and narcotics is probably the first and foremost 
on that.
    One of the things that's marvelous about the new 
legislation that was passed by the legislature this last 
session was creating a steering committee, like a board of 
directors for the group. One of the organizations on that 
steering committee is the U.S. Attorneys Office. So the 
coordination between State and Federal has been and will 
continue to be tremendous.
    One of the areas that you inquired about is where the 
Federal Government could be of support. In the HIDTA program 
one of the things that Congress has funded is aggressive 
intelligence gathering and information sharing amongst the 
HIDTA members. Where there is no HIDTA in States like 
Minnesota, we are left to jury-rig those systems. The 
legislation that the legislature passed will provide us with 
the framework for enhanced intelligence gathering and 
information sharing, and this is an area where, frankly, 
Congress could be of great assistance. It is not effective in 
any kind of drug interdiction and, in particular, in meth where 
you have the combination of local impact labs and national 
impact major labs, if you will, the Mexican organizations to 
operate these in a reactive mode. Rather, we need to be doing 
our narcotics interdiction on a proactive mode.
    I share, being a district--Minnesota is a Federal district 
that covers all four corners of the State. Therefore, about 
half of the constituents that I represent are rural and half 
are urban. We are seeing not only the very, very significant 
impact on local communities about which you heard today, but we 
are seeing a rapidly increasing impact of methamphetamine in 
the urban areas.
    One thing that has not been mentioned today that I think is 
worthy of your consideration, and I know that other committees 
within Congress have focused upon this, actually, maybe this 
committee, is the impact of gang activity and street gang 
activity on the distribution of narcotics generally and on the 
distribution of methamphetamine specifically. We have found, 
for example, in Minneapolis one of the reasons that the African 
American community is still largely utilizing crack cocaine and 
marijuana is that the African American gangs are largely 
distributing crack cocaine.
    Now, as that changes, as we see methamphetamine 
increasingly being distributed by street gangs, be they Mexican 
street gangs or African American or Asian or Native American, 
we are seeing in the urban area an increase in this type of 
activity. Therefore, I would urge Congress to look at these as 
related challenges, not independent challenges.
    Finally, I happen to chair the Native American Issue 
Subcommittee amongst the U.S. Attorneys. In other words, I'm 
the lead Federal prosecutor for Indian country. We held a 3-day 
summit approximately 2 years ago in Rapid City to focus on the 
incidence of drugs, guns and gangs in Indian country.
    Native American communities are no different from rural 
America. In fact, the methamphetamine problem as we have 
identified it is largely a western phenomenon moving east, with 
the exception, obviously, of the influence of motorcycle gangs 
nationally, and historically more and more, one of the reasons 
this doesn't seem to have gotten the attention in Washington, 
in my opinion, than other drug phenomena is this has been 
largely a western phenomenon moving east.
    Most of the Native American communities in the Nation are 
in the western part of the country. They share all of rural 
America's challenges in being rural, and because of the 
incidence of confusion over who has law enforcement 
responsibility within Indian country and the scarcity of law 
enforcement resources for most Native American communities, the 
challenges of methamphetamine or any kind of drug, which 
marijuana, for example, is in--hides in cultivation within 
Native American communities. These challenges are all the more 
pressing when applied in Indian country.
    We found in our South Dakota hearing, for example, as we 
focused on the meth problem and the drug problem primarily in 
the Pine Ridge Rosebud Reservation, that the meth was coming 
across Interstate 90 from Seattle and was being dropped off in 
the reservations across the country.
    Therefore, I urge the committee as it focuses on this as a 
national problem, as it focuses on this as a rural problem, to 
consider the Native American communities are fully involved in 
this problem and the challenges that they face in dealing with 
drug interdiction are a significant challenge because of the 
issues I cited; and if the committee would like me to put any 
of these comments to writing, I would be happy to.
    Mr. Souder. Have you used RICO on any of the gangs?
    Mr. Heffelfinger. We have not used RICO in this district. 
We have found that RICO is a marvelous statute in the 
appropriate case, but it has some challenges when it comes to 
proving it, that we found that conspiracy in other more 
standard rules have been appropriate.
    We do have a significant OCDETF presence here in Minnesota. 
The U.S. Attorneys Office history over the past 5 years has 
been that methamphetamine is our largest quantity of drug. But 
the drug we prosecute most frequently, I should say, that 
increase in methamphetamine as the No. 1 drug is only growing, 
and our OCDETF work which is so voluminous that we just got 
another position of Assistant U.S. Attorney to do this work, 
mirrors that drug of choice problem, increasingly 
methamphetamine, and it is statewide.
    Mr. Souder. Thank you very much for that information. It 
was fascinating, and one of the interesting things and you just 
raised it again, that these drug groups work like big trucking 
companies.
    I have a business background. In fact, it's great to be 
back in Minnesota. I started here after graduate school as 
marketing manager for Gabberts Furniture in Edina, and Yakima 
and the Tri-Cities area in Washington State is like this huge 
hub. They bring this stuff all the way up from Mexico. BC bud 
marijuana comes down in tons from British Columbia. They do all 
these swaps of guns, cocaine, heroin, methamphetamines coming 
up in the super meth, and then we're seeing it like you 
described it going all across the upper Midwest.
    In multiple counties in my district in Indiana, we have it 
coming from Yakima and the Tri-Cities area, you would think 
that they could find a better way to Indiana than going up to 
Washington State and then back down. Congressman Deal, who at 
one point was vice chairman from Gainvesville, GA to Atlanta, 
also there they are coming from Washington State, and it is 
this phenomena of certain families in distribution networks, 
certain communities, and like various different trucking 
patterns and distribution networks, and in effect that's why 
OCDETF and organized crime areas have to get to the underneath 
of this because we're just going to drown trying to tackle 
individuals going to court, trying to address our kids. We've 
got to get at the larger networks involved and how the 
information is getting in as this kind of experiment.
    The one thing that I would add just slightly is that I 
think that it's correct to say that it's certainly moving west 
to east, but it was also moving out to in from rural to 
suburban to urban, which meant that even in States like 
Colorado, Denver wasn't engaged, even Des Moines, IA was not as 
engaged, Omaha is only becoming engaged in Nebraska, New 
Orleans is not engaged in Louisiana, Nashville, Memphis and 
Knoxville weren't in Tennessee, Indianapolis, Ft. Wayne, IN, it 
was in the small areas. So even in a given State you would only 
have a few Congressmen who were just--like in my district it's 
the TV news lead story every single night. There isn't a day 
that we don't have major meth takedowns, and so what we're 
starting to see as this moves east and starts to move into the 
suburbs and the city, there's much more of a reaction in 
Congress that we've built to a threshold much like what you're 
seeing in some of the State legislature.
    So thank you for being part of this. I want to thank the 
members in Minnesota who have been very aggressive in trying to 
get our attention, and it's been great testimony at a very 
critical time, and anything else you'd like to submit for the 
record, and we'll get some additional written questions out as 
our supplement and followup.
    The subcommittee stands adjourned.
    [Whereupon, the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4891.116

[GRAPHIC] [TIFF OMITTED] T4891.117

[GRAPHIC] [TIFF OMITTED] T4891.118

[GRAPHIC] [TIFF OMITTED] T4891.119

[GRAPHIC] [TIFF OMITTED] T4891.120

[GRAPHIC] [TIFF OMITTED] T4891.121

[GRAPHIC] [TIFF OMITTED] T4891.061

[GRAPHIC] [TIFF OMITTED] T4891.062

[GRAPHIC] [TIFF OMITTED] T4891.063

[GRAPHIC] [TIFF OMITTED] T4891.064

[GRAPHIC] [TIFF OMITTED] T4891.065

[GRAPHIC] [TIFF OMITTED] T4891.066

[GRAPHIC] [TIFF OMITTED] T4891.067

[GRAPHIC] [TIFF OMITTED] T4891.068

[GRAPHIC] [TIFF OMITTED] T4891.069

[GRAPHIC] [TIFF OMITTED] T4891.070

[GRAPHIC] [TIFF OMITTED] T4891.071

[GRAPHIC] [TIFF OMITTED] T4891.072

[GRAPHIC] [TIFF OMITTED] T4891.073

[GRAPHIC] [TIFF OMITTED] T4891.074

[GRAPHIC] [TIFF OMITTED] T4891.075

[GRAPHIC] [TIFF OMITTED] T4891.076

[GRAPHIC] [TIFF OMITTED] T4891.077

[GRAPHIC] [TIFF OMITTED] T4891.078

[GRAPHIC] [TIFF OMITTED] T4891.079

[GRAPHIC] [TIFF OMITTED] T4891.080

[GRAPHIC] [TIFF OMITTED] T4891.081

[GRAPHIC] [TIFF OMITTED] T4891.082

[GRAPHIC] [TIFF OMITTED] T4891.083

[GRAPHIC] [TIFF OMITTED] T4891.084

[GRAPHIC] [TIFF OMITTED] T4891.085

[GRAPHIC] [TIFF OMITTED] T4891.086

[GRAPHIC] [TIFF OMITTED] T4891.087

[GRAPHIC] [TIFF OMITTED] T4891.088

[GRAPHIC] [TIFF OMITTED] T4891.089

[GRAPHIC] [TIFF OMITTED] T4891.090

[GRAPHIC] [TIFF OMITTED] T4891.091

[GRAPHIC] [TIFF OMITTED] T4891.092

[GRAPHIC] [TIFF OMITTED] T4891.093

[GRAPHIC] [TIFF OMITTED] T4891.094

[GRAPHIC] [TIFF OMITTED] T4891.095

[GRAPHIC] [TIFF OMITTED] T4891.096

[GRAPHIC] [TIFF OMITTED] T4891.097

[GRAPHIC] [TIFF OMITTED] T4891.098

[GRAPHIC] [TIFF OMITTED] T4891.099

[GRAPHIC] [TIFF OMITTED] T4891.100

[GRAPHIC] [TIFF OMITTED] T4891.101

[GRAPHIC] [TIFF OMITTED] T4891.102

[GRAPHIC] [TIFF OMITTED] T4891.103

[GRAPHIC] [TIFF OMITTED] T4891.104

[GRAPHIC] [TIFF OMITTED] T4891.105

[GRAPHIC] [TIFF OMITTED] T4891.106

[GRAPHIC] [TIFF OMITTED] T4891.107

[GRAPHIC] [TIFF OMITTED] T4891.108

[GRAPHIC] [TIFF OMITTED] T4891.109

[GRAPHIC] [TIFF OMITTED] T4891.110

[GRAPHIC] [TIFF OMITTED] T4891.111

[GRAPHIC] [TIFF OMITTED] T4891.112

[GRAPHIC] [TIFF OMITTED] T4891.113

[GRAPHIC] [TIFF OMITTED] T4891.114

[GRAPHIC] [TIFF OMITTED] T4891.115

                                 <all>

</pre></body></html>
